<html>
<title> - TESTIMONY RELATING TO THE ``DON'T ASK, DON'T TELL'' POLICY</title>
<body><pre>[Senate Hearing 111-546]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-546
 
       TESTIMONY RELATING TO THE ``DON'T ASK, DON'T TELL'' POLICY 

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 18, 2010

                               __________

         Printed for the use of the Committee on Armed Services

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

57-495 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



























                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

ROBERT C. BYRD, West Virginia        JOHN McCAIN, Arizona
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SAXBY CHAMBLISS, Georgia
BILL NELSON, Florida                 LINDSEY GRAHAM, South Carolina
E. BENJAMIN NELSON, Nebraska         JOHN THUNE, South Dakota
EVAN BAYH, Indiana                   ROGER F. WICKER, Mississippi
JIM WEBB, Virginia                   GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           SCOTT P. BROWN, Massachusetts
MARK UDALL, Colorado                 RICHARD BURR, North Carolina
KAY R. HAGAN, North Carolina         DAVID VITTER, Louisiana
MARK BEGICH, Alaska                  SUSAN M. COLLINS, Maine
ROLAND W. BURRIS, Illinois
JEFF BINGAMAN, New Mexico
EDWARD E. KAUFMAN, Delaware

                   Richard D. DeBobes, Staff Director

               Joseph W. Bowab, Republican Staff Director

                                  (ii)


















                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

       Testimony Relating to the ``Don't Ask, Don't Tell'' Policy

                             march 18, 2010

                                                                   Page

Sheehan, Gen. John J. USMC (Ret.), Former Supreme Allied 
  Commander, Atlantic, and Former Commander in Chief, U.S. 
  Atlantic Command...............................................     6
Almy, Michael D., Former Major, U.S. Air Force...................     9
Kopfstein, Jenny L., Former Lieutenant Junior Grade, U.S. Navy...    13

                                 (iii)


       TESTIMONY RELATING TO THE ``DON'T ASK, DON'T TELL'' POLICY

                              ----------                              


                        THURSDAY, MARCH 18, 2010

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:51 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, E. 
Benjamin Nelson, Webb, Udall, Hagan, Burris, Kaufman, McCain, 
Sessions, Chambliss, Thune, and Collins.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Jonathan D. Clark, counsel; 
Gabriella Eisen, counsel; Jessica L. Kingston, research 
assistant; Gerald J. Leeling, counsel; and Roy F. Phillips, 
professional staff member.
    Minority staff members present: Joseph W. Bowab, Republican 
staff director; Michael V. Kostiw, professional staff member; 
Diana G. Tabler, professional staff member; and Richard F. 
Walsh, minority counsel.
    Staff assistants present: Jennifer R. Knowles, Christine G. 
Lang, and Breon N. Wells.
    Committee members' assistants present: James Tuite, 
assistant to Senator Byrd; Christopher Griffin, assistant to 
Senator Lieberman; Nick Ikeda, assistant to Senator Akaka; Ann 
Premer, assistant to Senator Ben Nelson; Patrick Hayes, 
assistant to Senator Bayh; Gordon I. Peterson, assistant to 
Senator Webb; Jennifer Barrett, assistant to Senator Udall; 
Roger Pena, assistant to Senator Hagan; Lindsay Kavanaugh, 
assistant to Senator Begich; Roosevelt Barfield, assistant to 
Senator Burris; Halie Soifer, assistant to Senator Kaufman; 
Lenwood Landrum and Sandra Luff, assistants to Senator 
Sessions; Clyde A. Taylor IV, assistant to Senator Chambliss; 
Jason Van Beek, assistant to Senator Thune; and Chip Kennett 
and Meghan Simonds, assistants to Senator Collins.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    We're going to come to order, but we're then going to 
recess for 10 minutes, until 10 o'clock, and--for the benefit 
of colleagues, because we have an order of speaking, here, as 
to who's actually here when the gavel bangs. This will count. 
So, this will be the order we'll establish, and we'll pick up 
that order at 10 o'clock, when we will begin our hearing.
    But, we are going to recess now until 10 o'clock or a few 
minutes thereafter.
    We will stand in recess. [Recess.]
    The committee will come to order.
    We meet this morning to continue to receive testimony on 
the ``Don't Ask, Don't Tell'' policy on gays in the military.
    The Secretary of Defense testified before this committee, 
on February 2, 2010, that he supported the President's decision 
to work with Congress to repeal the law known as ``Don't Ask, 
Don't Tell,'' and said that, ``The question before us is not 
`whether' the military prepares to make this change, but `how' 
we best prepare for it.''
    At the same hearing, Admiral Mullen, the Chairman of the 
Joint Chiefs of Staff, expressed his personal belief that 
allowing gays and lesbians to serve openly could be the right 
thing to do. He said, ``No matter how I look at this issue, I 
cannot escape being troubled by the fact that we have in place 
a policy which forces young men and women to lie about who they 
are in order to defend their fellow citizens. For me, 
personally,'' he said, ``it comes down to integrity, theirs as 
individuals and ours as an institution.''
    Today, we will hear testimony from witnesses who do not 
represent the Department of Defense (DOD), although each of 
them has served with distinction in the military.
    We welcome General John Sheehan, United States Marine 
Corps, retired. While on Active Duty, General Sheehan served in 
various command positions, ranging from company commander to 
brigade commander in both the Atlantic and Pacific theater of 
operations. General Sheehan's combat tours included duty in 
Vietnam and Operations Desert Shield/Desert Storm. His last 
assignment was as Supreme Allied Commander, Atlantic and 
Commander in Chief, U.S. Atlantic Command.
    Michael Almy served as an Active Duty Air Force officer for 
13 years before he was discharged in 2006 under ``Don't Ask, 
Don't Tell.'' He deployed to the Middle East four times during 
his Active Duty career, serving in Operation Desert Fox, 
Operation Southern Watch, and Operation Iraqi Freedom. He was 
named Officer of the Quarter and Officer of the Year several 
times throughout his career, and in 2005 was named the top 
communications officer for the Air Force in Europe and was 
recommended for promotion to lieutenant colonel prior to his 
discharge in 2006.
    Jenny Kopfstein, a Naval Academy graduate, served on Active 
Duty in the Navy for nearly 3 years. She revealed her sexual 
orientation to her commanding officer during her first 
shipboard assignment. Apparently, knowledge of her sexual 
orientation had no impact on her duty performance, as she was 
sent on a second deployment in support of Operation Enduring 
Freedom. She earned several awards and honors, and was promoted 
during her service. Significantly, two of her commanding 
officers testified at her separation hearing that, while they 
understood she was a lesbian, she was an excellent officer who 
should remain in the Navy. Despite that testimony, Ms. 
Kopfstein was discharged under ``Don't Ask, Don't Tell'' in 
2002.
    Cases like this make it clear to me that we should repeal 
this discriminatory policy. I do not find the arguments used to 
justify ``Don't Ask, Don't Tell'' convincing, I did not find 
them convincing when it took effect in 1993, and they are less 
so now, as made evidence by the experiences of Mr. Almy and Ms. 
Kopfstein and so many like them. What matters is a willingness 
and an ability to perform the mission, not an individual's 
sexual orientation.
    In the latest Gallup poll the American public 
overwhelmingly supports allowing gays and lesbians to serve 
openly in the military. Sixty-nine percent of Americans are 
recorded as supporting their right to serve, and many gays and 
lesbians are, in fact, serving in our military.
    As former Chairman of the Joint Chiefs of Staff, General 
John Shalikashvili, who supports ending the policy, has pointed 
out, the majority of troops already believe they serve 
alongside gay or lesbian colleagues. It's hard to know for 
sure, but one recent study estimated that 66,000 gays and 
lesbians are serving today, forced to hide their orientation, 
at a constant risk of losing the chance to serve.
    Supporters of the current ``Don't Ask, Don't Tell'' policy 
argue that allowing gays and lesbians to serve openly would 
damage unit cohesion and morale, crucial factors in building 
combat effectiveness. But, there is no evidence that the 
presence of gay and lesbian colleagues would damage our 
military's ability to fight. Gay men and women are serving now, 
and their fellow servicemembers often know that they are 
serving with them. Their service is not damaging unit cohesion 
and morale.
    Other nations have allowed gay and lesbian servicemembers 
to serve in their militaries without discrimination and without 
impact on cohesion or morale. The most comprehensive study on 
this was conducted by RAND in 1993. RAND researchers reported 
on the positive experiences of Canada, France, Germany, Israel, 
the Netherlands, and Norway, all of which allowed known 
homosexuals to serve in the Armed Forces. We've asked the 
Department to update that 1993 report.
    Mr. Almy and Ms. Kopfstein were discharged, not because of 
their duty performance, not because their presence interfered 
with unit cohesion, and not because their sexual orientation 
compromised the military mission; they were discharged solely 
on the basis of who they are, what their sexual orientation is.
    Senator Lieberman has introduced the Military Readiness 
Enhancement Act of 2010, of which I am cosponsor, that would 
replace the current policy concerning homosexuality in the 
Armed Forces with a policy of nondiscrimination on the basis of 
sexual orientation.
    I hope we can move quickly and deliberately to maximize the 
opportunity for all Americans to serve their country. We can 
and should do that in a way that honors our Nation's values 
while making us more secure.
    The committee has received many statements for the record. 
Some of them are from: American Veterans for Equal Rights; 
Center for American Progress Action Funds; Association of the 
Bar of the City of New York; Servicemembers United; Human 
Rights Campaign; and Servicemembers Legal Defense Network. They 
and other statements that are relevant to this subject and will 
be made part of the record.
    [The prepared statements of: American Veterans for Equal 
Rights; Center for American Progress Action Fund; Association 
of the Bar of the City of New York; Servicemembers United; 
Human Rights Campaign; and Servicemembers Legal Defense Network 
follow:]

    [See Appendix A]

    Chairman Levin. Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. I thank you, Mr. Chairman.
    I join you in welcoming our witnesses, thanking each of 
them for their military service and their willingness to share 
their views with us today.
    As we all know, the committee's focus today is on the 
``Don't Ask, Don't Tell'' policy, which, since 1993, has not 
barred gay and lesbian individuals from serving in the Armed 
Forces. It has not barred gay and lesbian individuals from 
serving in the Armed Forces, but it's prevented them from doing 
so openly. We will hear testimony for and against the policy 
based on our witnesses' military experience. I look forward to 
listening with an open mind, and learning from each of them. I 
urge all my colleagues to do the same.
    Since early February, our committee has received testimony 
on this issue from Secretary Gates and the Service Secretaries, 
echoing the desire of the President, a campaign commitment, to 
have Congress repeal the ``Don't Ask, Don't Tell'' policy. 
We've also heard the moving personal views of Admiral Mullen 
and several of the combatant commanders during their posture 
hearing testimony.
    Finally, we've heard from the Service Chiefs, who have 
responsibility under law for the organization, training, and 
overall readiness of their forces, and for providing their best 
military advice to the President on matters that might affect 
their ability to ensure sufficiently trained and ready forces. 
Each of the Service Chiefs has expressed his support for the 
comprehensive high-level review that Secretary Gates has 
directed. However, each has indicated that he is not prepared 
to support a repeal of the ``Don't Ask, Don't Tell'' policy at 
this time. Each has also testified that he opposes your 
suggestion, Mr. Chairman, of a moratorium on discharges while 
the review is being conducted.
    Based on their testimony, I urge my colleagues to await the 
completion of the review in order to give the Service Chiefs 
the information they have asked for before any attempt is made 
to legislate a change for political reasons that our military 
leaders will be required to implement.
    I will strongly oppose any attempt to change the current 
law based on an incomplete and inadequate review of this 
policy. I appeal to all my colleagues to take this approach in 
the interest of national security.
    With respect to the review itself, I have expressed my 
concerns about its focus and scope. Unfortunately, in his 
testimony to this committee, Secretary Gates described the 
mandate as ``A review of the issues associated with properly 
implementing a repeal of the `Don't Ask, Don't Tell' policy. 
The guiding question,'' as Secretary Gates put it, ``should be 
not whether the military prepares to make this change, but how 
we best prepare for it.'' This is consistent with the 
President's goals, but it gets things backwards.
    The current Pentagon review should be an objective study of 
the relevant military issues, not an implementation plan. This 
issue that Congress must decide, and the issue the Service 
Chiefs should be asked to give their best military advice 
about, is whether the ``Don't Ask, Don't Tell'' policy should 
be repealed. We should ask that question to our Service 
personnel at all levels, and their families and genuinely 
consider their views in our debate. Clearly there are many 
policy and logistical challenges that would have to be overcome 
if the law is repealed, but that should not be the primary 
focus of this review.
    I will continue to insist that we use the next 8 months to 
study not ``how'' to implement a change to the current policy, 
but ``whether'' and ``why'' the men and women of the Armed 
Forces--the generals, the officers, the noncommissioned 
officers, and the privates--support or oppose such a change. I 
would then expect, and I think the American people have every 
right to expect, the views of the Service Chiefs to incorporate 
this critically important information.
    As I have stated before, I am proud and thankful for every 
American who chooses to put on the uniform of our country and 
serve this Nation, particularly in this time of war. The 
``Don't Ask, Don't Tell'' policy is not perfect, but it 
reflects a compromise achieved with great difficulty that has 
effectively supported military readiness. However imperfect, 
the policy has allowed many gay and lesbian Americans to serve 
their country. I honor their service. I honor their sacrifices, 
and I honor them. We should not change the current policy until 
we are confident, from a military standpoint, with the informed 
advice of the Service Chiefs, that such a change is consistent 
with military effectiveness.
    I would ask, also, for unanimous consent, that copies of 
recently passed resolutions from the American Legion, the 
largest veterans service organization, with a membership of 3 
million veterans, and the Veterans of Foreign Wars of the 
United States, with a membership over 1,500,000, recommending 
against repeal of the current law, be included in the record.
    Chairman Levin. They will be made part of the record.
    [The information referred to follows:]

    [See Appendix B]

    Senator McCain. Finally, in summary, and I would say to my 
colleagues, we have the best-trained, best-equipped, most 
professional military that I have known in the many, many years 
I've had the honor of serving and knowing men and women in the 
U.S. military. Retention and recruitment is at an all time high 
in the history of the All-Volunteer Force. We are in two wars. 
Before we implement a change in policy that clearly, by 
objective indicators, seems to have given us a best military 
that we have had in the history of this country, that we ought 
to have a careful and thorough review, not only of the views of 
the men and women in the military who serve at the top, but the 
views of the men and women who are serving today in harm's way.
    I thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    We'll now turn to General Sheehan.

STATEMENT OF GEN. JOHN J. SHEEHAN, USMC (RET.), FORMER SUPREME 
ALLIED COMMANDER, ATLANTIC, AND FORMER COMMANDER IN CHIEF, U.S. 
                        ATLANTIC COMMAND

    General Sheehan. Mr. Chairman, thank you very much. If you 
have no objections, I'd like to read my statement----
    Chairman Levin. That'd be fine. Is your mic on?
    General Sheehan. It is. Yes, sir.
    Chairman Levin. Thank you.
    General Sheehan. First, thank you for the opportunity to 
testify before this committee on a very complex issue. I'm here 
not out of any political conviction, but because I was asked by 
this committee to share my views as part of the debate in this 
issue. From my previous experiences with this committee, I know 
this committee is charged with an awesome responsibility that 
is, in part, shared with the Commander in Chief, but the 
Constitution commits, exclusive to Congress and this body, the 
responsibility to raise and regulate this Nation's Armed 
Forces.
    My point of view and convictions were formed from my 
experience during 35 years of service as a Marine Corps 
infantry officer who has served in combat, led a platoon, three 
companies, an infantry battalion, and an infantry regiment. My 
career also includes command of units from 26 different 
nations.
    My basic belief is that everyone can and should serve this 
great country in some way. We also know and agree that not 
everybody is qualified or eligible to serve in the military, 
for a variety of reasons, including age, health, education, and 
so on.
    The 1993 review, which resulted in the adoption of section 
654 of title 10 U.S.C., arrived at a number of findings. The 
most important in my mind, that there is no constitutional 
right to serve in the Armed Forces. The findings of 1993 also 
confirmed something that my family and I already knew and 
accepted, which is that military life is fundamentally 
different from civilian life, and that military society is 
characterized by its own laws, rules, customs, and traditions, 
including numerous restrictions on personal behavior that would 
not be accepted in normal civilian life.
    I can acknowledge that popular culture has changed in many 
ways. However, the nature and requirements of military life 
have changed very little. Military culture is deliberately 
developed and structured to mold individuals from all walks of 
life into a coherent group that willingly sacrifices self for 
the strength of the unit. In fact, the cohesion of a unit is 
predicated, in part, on the lack of individuality of its 
members. No special accommodations need to be afforded to 
anyone of them. To the degree possible, we try to make marines 
interchangeable. This makes the military a unique institution 
within the broader American society. It asks--no, it really 
demands--that individuals put aside individual interests and 
behavior for the good of the unit. Self-sacrifice is the 
cornerstone of the unit cohesion that builds effective combat 
organizations.
    The ``Don't Ask, Don't Tell'' policy, however awkward and 
difficult, reinforces the critical maxim that, first and 
foremost, you are a soldier, sailor, airman, or marine. Your 
preferences and desires are not relevant. Effectiveness in 
training and mission accomplishment on the battlefield are the 
standards that you judge them by.
    Because the military is a human institution, it is, by 
definition, imperfect, and there are some who fail to maintain 
their eligibility after entry, thus rendering them ineligible 
for further service. The past good work of servicemembers who 
are attracted to the same sex is an indication of only one 
thing: that they have been able to serve well prior to becoming 
ineligible.
    To my knowledge, nobody's making the argument that a man or 
woman being attracted to the same sex debilitates them, either 
intellectually or physically. The question under review is 
whether the behavior of a person who openly declares a sexual 
attraction to the same sex directly or indirectly contributes 
to the--or detracts from--military cohesion. Make no mistake, 
this is not about consideration being given to someone who 
wants to serve in the military despite being attracted to the 
same sex, this particular argument has to do with the supposed 
right to declare oneself to be sexually attracted to a 
particular segment of the population, and insist on continuing 
to live in the most intimate proximity with them.
    If this committee were able to clearly demonstrate that 
this change would improve military effectiveness, then the 
change should be implemented. But, if someone were to insist on 
implementation because of an ulterior motive other than clear 
evidence and there was an uncertainty about the effect it would 
have on the unit cohesion, then that is a risk I would not 
recommend or support in today's environment.
    As we sit here today, U.S. Forces are deployed in Iraq and 
Afghanistan, fighting an armed enemy sworn to destroy our way 
of life. Our enemies respect and fear the United States combat 
capability. Unfortunately, our enemies, especially the 
extremists, do not care how enlightened or progressive our 
culture may be. The only thing that matters is the 
effectiveness on the battlefield.
    For over 200 years, the Marine Corps and other elite combat 
formations, like Special Forces, Airborne, and Ranger units, 
have developed training and performance-based systems that 
breed success in the battlefield. Effective units need to act 
as a coherent unit. As the law says, military life is 
fundamentally different from a civilian life. This is a 
difficult reality to accept for individuals who have never 
served or had such exposure to our Armed Forces. It goes well 
beyond just wearing a uniform to work on a daily basis. More 
than once, during my military career, the unacceptable behavior 
of one selfish marine has created a single point of failure for 
his unit and endangered lives. In every instance unit 
polarization occurred because of this selfish behavior.
    I also know that some will argue that the circumstances of 
warfare are different. I would argue that, in many ways, 
they're very similar. Selfish behavior in Vietnam, Khafji, or 
Fallujah can affect entire units and detract from the success 
of combat missions. To state the obvious, warfare is difficult, 
ugly business. Congress should not impose more uncertainty in a 
battlefield that is already complex enough.
    Each member of this committee must, in his or her own mind, 
feel absolutely certain that the change of the current law will 
improve this Nation's combat effectiveness and minimize the 
risks our young men and women face in today's battlefield. The 
change must also reduce the current environment of a hostile 
workplace that exists and is increasing today.
    Thank you very much for the opportunity to testify.
    [The prepared statement of General Sheehan follows:]
        Prepared Statement by Gen. John J. Sheehan, USMC (Ret.)
    Thank you for the opportunity to testify before this committee 
today on a very complex issue. I am here not out of any political 
conviction but because I was invited by this committee to share my 
views as part of the debate on this issue
    From my previous experiences with this committee I know the 
committee is charged with an awesome responsibility that is in part 
shared with the Commander in Chief. But the Constitution commits 
exclusively to Congress the responsibility to raise and regulate this 
Nation's Armed Force.
    My point of view and convictions were formed from my experiences 
during my 35 years of service as a Marine Corps infantry officer who 
has served in combat led a platoon, three companies, an infantry 
battalion, and an infantry regiment. My career also includes command of 
units from 26 other nations.
    My basic belief is that everyone can and should serve this great 
country in some way, but we also know and can agree that not everyone 
is qualified or eligible to serve in the military for a variety of 
reasons including age, health education and so on.
    The 1993 review which resulted in the adoption of Section 654 
arrived at a number of findings; the most important in my mind was that 
``there is no constitutional right to serve in the armed serves.'' The 
findings of 1993 also confirmed something that my family and I already 
knew and accepted which was that ``military life is fundamentally 
different from civilian life; and ``that military society is 
characterized by its own laws, rules, customs, and traditions, 
including numerous restrictions on personal behavior, that would not be 
acceptable in normal civilian society.''
    We can all acknowledge that popular culture has changed in many 
ways. However, the nature and requirements of military life have 
changed very little. Military culture is deliberately developed and 
structured to mold individuals from all walks of life into a coherent 
group that willingly sacrifices self for the strength of the unit. In 
fact, the cohesiveness of a unit is predicated in part on the lack of 
individuality of its members. No special accommodation needs to be 
afforded any one of them. To the degree possible, we try to make 
Marines interchangeable. This makes the military a unique institution 
within the broader American society. It asks--no, it demands--that 
individuals put aside individual interests and behavior for the good of 
the unit. Self sacrifice is the cornerstone of the unit cohesion that 
builds effective combat organizations.
    DADT policy however awkward and difficult reinforces the critical 
maxim that first and foremost you are a soldier, sailor, airman, or 
marine. Your preferences and desires are not relevant. Effectiveness in 
training and mission accomplishment on the battlefield are the 
standard.
    Because the military is a human institution it is by definition 
imperfect and there are some who fail to maintain their eligibility 
after entry thus rendering them ineligible for further service. The 
past good work of servicemembers who are attracted to the same sex is 
an indication of only one thing: that they have been able to serve well 
prior to becoming ineligible. To my knowledge, nobody is making the 
argument that a man or woman being attracted to the same sex 
debilitates them intellectually or physically,
    The question under review is whether the behavior of a person who 
openly declares a sexual attraction to the same sex directly or 
indirectly contributes to or detracts from military cohesion.
    Make no mistake; this is not about consideration being given to 
someone who wants to serve in the military despite being attracted to 
the same sex. This particular argument has to do with a supposed right 
to declare oneself to be sexually attracted to a particular segment of 
the population and insist on continuing to live in the most intimate 
proximity with them. If this committee were able to clearly demonstrate 
that this change would improve military effectiveness, then the change 
should be implemented. But if someone were to insist on implementation 
because of an ulterior motivation other than clear evidence and there 
was a uncertainty about the effect it would have on unit cohesion, then 
that is a risk I would not recommend or support in today's environment.
    As we sit here today, U.S. forces are deployed in Iraq and 
Afghanistan, fighting an armed enemy sworn to destroy our way of life. 
Our enemies respect and fear the United States' combat capability. 
Unfortunately, our enemies especially extremists do not care how 
enlightened or progressive our culture may be. The only thing that 
matters is effectiveness on the field of battle.
    For over 200 years the Marine Corps and other elite combat 
formations like Special Forces, Airborne and Ranger units have 
developed training and performance based systems that breed success on 
the battlefield. Effective units need to act as a cohesive unit. As the 
law says, Military life is fundamentally different from civilian life. 
This is a difficult reality to accept for individuals who have never 
served or had much exposure to our Armed Forces. It goes well beyond 
wearing your uniform to your day job.
    More than once during my military career the unacceptable behavior 
of one selfish marine has created a single point of failure for his 
unit and endangered lives. In every instance unit polarization occurred 
because of selfish behavior.
    I also know that some will argue that the circumstances of warfare 
today are different. I would argue that in many ways they are the same. 
Selfish behavior in Vietnam, Khafji, and Fallujah can effect entire 
units and detract from the success of combat missions. To state the 
obvious, warfare is difficult ugly duty. Congress should not impose 
more uncertainty on a battlefield that is already complex enough.
    Each member of this committee must in his or her own mind feel 
absolutely certain that the change to the current law will improve this 
Nation's combat effectiveness and minimize the risks our young men and 
women face on the battlefield. The change also must reduce the current 
environment of a hostile workplace not increase it.
    Thank you for the opportunity to testify today.

    Chairman Levin. Thank you very much, General.
    Mr. Almy.

   STATEMENT OF MICHAEL D. ALMY, FORMER MAJOR, U.S. AIR FORCE

    Mr. Almy. Good morning, Mr. Chairman, Senator McCain, 
Senators.
    My name is Mike Almy. I served as an officer in the United 
States Air Force for 13 years and attained the rank of major, 
until I was discharged under ``Don't Ask, Don't Tell.'' I'm 
honored to be here this morning to tell you a little of my 
story.
    I come from a family with a rich history of military 
service. My father is a West Point graduate, taught chemistry 
at the Air Force Academy, flew helicopters in Vietnam, and 
ultimately retired as a senior officer from the Air Force. One 
of my uncles retired as a master gunnery sergeant from the 
Marine Corps, with service in World War II, Korea, and Vietnam. 
Another one of my uncles, also with service in Korea, retired 
from the Army.
    My family's military service inspired me to follow suit. 
When I was growing up, I didn't really know what civilians 
were, I just knew I would always follow in my father's 
footsteps and become a military officer. As such, I joined Air 
Force Reserve Officer Training Corps (ROTC) in 1988, and 
shortly thereafter earned a scholarship through ROTC. In 1991, 
I went through Army Airborne training at Fort Benning and 
earned my jump wings. In 1992, I graduated from ROTC in the top 
10 percent of all graduates nationwide. In 1993, I came on 
active duty, just as ``Don't Ask, Don't Tell'' was becoming a 
law, and was stationed in Mississippi. Following this I was 
stationed in Texas, Illinois, Oklahoma, where I was named the 
top officer of my unit for the year, out of a group of about 
1,000 people. Following this, I was one of six officers from 
the entire Air Force selected to attend Professional Military 
Education at Quantico Marine Corps Base, VA. After this, I was 
stationed in Germany for 4 years, where I led the 
communications directorate of an air control squadron.
    During my career, I deployed to the Middle East four times 
in support of our efforts in Iraq. In my last position in the 
Air Force, I led a team of nearly 200 men and women, whose 
mission was to operate and maintain the systems used to control 
the airspace over Iraq. On this deployment, we came under daily 
mortar attack, one of which struck one of my airmen and also 
caused significant damage to our equipment. Towards the end of 
this deployment, I was named one of the top officers in my 
career field for the entire Air Force.
    During my time in Iraq, the Air Force restricted access to 
all private emails. Therefore, we were authorized to use work 
emails for personal and morale purposes. Shortly after I left 
Iraq, someone in the unit that had replaced mine was conducting 
a routine search and discovered my personal emails written to 
family and friends from the stress of a combat zone. The file 
was clearly labeled personal, and, as such, there was no 
military or work-related reason to search these emails. The 
commander in Iraq, during the height of the insurgency, ordered 
a search of my personal emails solely to determine if I had 
violated ``Don't Ask, Don't Tell,'' and to gather whatever 
evidence could be used against me.
    These emails were forwarded to my commander back in 
Germany. He next called me into his office and demanded that I 
give him an explanation for these emails. I refused to discuss 
the nature of these emails, because I considered them personal 
and private. I told my commander I would not make a statement 
until I had first consulted with a lawyer.
    I was relieved of my duties leading nearly 200 airmen; my 
security clearance was suspended; part of my pay was 
terminated. Even as my commander was relieving me of my duties, 
he assured me that this was in no way a reflection of 
performance or my abilities as an officer.
    After that day, I was in limbo for 16 months. I was still 
in the Air Force, but I was given a meaningless make-work job, 
while the process slowly ground forward. In my discharge 
proceedings, several of my former troops and one of the 
squadron commanders that I had served with there on the base 
all wrote letters on my behalf, urging that I be retained in 
the Air Force. They expressed the greatest respect for me as an 
officer, they all wanted me back on the job as their leader, 
and they were all horrified at how the Air Force was treating 
me.
    Ultimately, after 16 months, I was discharged from the Air 
Force. The severance pay that I received from the Air Force was 
half what I would have received had I been discharged for any 
other reason.
    As a final insult, on my last day of Active Duty, I was 
given a police escort from the base as if I were a common 
criminal or a threat to national security.
    ``Don't Ask, Don't Tell'' failed me, despite the fact that 
I upheld my end of this law by never disclosing my private 
life. Never once in my 13-year career did I make a statement to 
the military that violated ``Don't Ask, Don't Tell'' despite 
pressure from my commander to do so.
    The law also failed the Air Force. There was considerable 
disruption to my squadron's unit cohesion after I was fired and 
replaced by a more junior officer with less experience. This 
had a negative effect on morale and unit cohesion, and the 
mission suffered as a result.
    Approximately a year after I was relieved of my position, 
my wing commander recommended that I be promoted to lieutenant 
colonel, even as the Air Force was actively pursuing a 
discharge against me.
    Being relieved from my duties as a 13-year career officer, 
enduring a 16-month administrative legal proceeding, and 
finally being discharged, was completely devastating to me. I 
felt betrayed by my country and treated as a second-class 
citizen, even as I had repeatedly risked my life on foreign 
soil. I understood the constraints of living under ``Don't Ask, 
Don't Tell,'' and never imagined that I would become a 
statistic, since I abided by its basic premise of never 
disclosing any aspect of my private life.
    My DD-214 discharge paperwork from the military categorizes 
the reasons for my separation as ``homosexual admission.'' I 
refused to sign this, because I never acknowledged anything to 
the military. Anytime I have applied for a Federal job, 
potential employers now see this on my record. I am now 
considered unfit for military service at a time when our Nation 
has actively recruited convicted felons, drug abusers, and high 
school dropouts. As a result of ``Don't Ask, Don't Tell'' and 
how the Air Force discharged me, I am now forced to reveal 
aspects of my private life to complete strangers, or once again 
lie about why I left the military.
    I only recently decided to come forward with my story as an 
example of a career of service to our country cut short by this 
discriminatory law. Multiply my story by nearly 14,000, and you 
begin to understand the magnitude of this law. Since I've gone 
public with my story, I've received emails thanking me for my 
service, my story, and, more importantly, for giving a voice to 
those who have none on this issue. Some of these servicemembers 
are currently serving in harm's way.
    My greatest desire now is to return to the Air Force as an 
officer and a leader, protecting the freedoms of a Nation that 
I love, freedoms that I myself was not allowed to enjoy while I 
was serving in the military. This is my calling in life. I hope 
that you will allow this to happen.
    Thank you.
    [The prepared statement of Mr. Almy follows:]
                   Prepared Statement by Michael Almy
    Good morning, Mr. Chairman, Senator McCain, Senators.
    My name is Mike Almy, I served in the U.S. Air Force for 13 years 
where I attained the rank of major before I was discharged under 
``Don't Ask, Don't Tell''. I am honored to be here today to share my 
story with you.
    I come from a family with a rich history of military service. My 
father is a West Point graduate, taught chemistry at the Air Force 
Academy, flew helicopters in Vietnam, and ultimately retired as a 
senior officer from the Air Force. One of my uncles retired as a Master 
Gunnery Sergeant from the Marine Corps, with service in World War II, 
Korea, and Vietnam. Another uncle retired from the Army, with service 
in Korea.
    My family's military service inspired me to follow suit. When I was 
growing up I didn't really know what civilians did--I just knew I would 
follow in my father's footsteps and become a military officer. I joined 
Air Force Reserve Officers' Training Corps (ROTC) in 1988, and earned a 
scholarship through ROTC. In 1991, I went through Army Airborne 
training at Fort Benning where I earned my jump wings. In 1992, I 
graduated from ROTC in the top 10 percent of all graduates nationwide. 
In 1993, I went on active duty, just as ``Don't Ask, Don't Tell'' was 
becoming a law, and was stationed in Mississippi. I then had 
assignments to Texas, Illinois, and Oklahoma, where I was named the 
Officer of the Year for my unit of nearly 1,000 people. Next, I was one 
of six officers selected from the entire Air force to attend 
Professional Military Education at Quantico, VA. Following this, I was 
stationed in Germany for 4 years, where I led the communications 
directorate for an air control squadron.
    During my career, I deployed to the Middle East four times in 
support of our efforts in Iraq. In my last position in the Air Force I 
led a team of nearly 200 men and women who's mission was to operate and 
maintain the systems used to control the air space over Iraq. On this 
deployment we came under daily mortar attacks, one of which struck one 
of my airmen and also caused significant damage to our equipment. 
Towards the end of this deployment to Iraq, I was named one of the top 
officers in my career field for the entire Air Force.
    During my time in Iraq, the Air Force restricted access to all 
private e-mail accounts. As such, we were authorized to use our work e-
mail accounts for personal or morale purposes. Shortly after I left 
Iraq and had returned to Germany, someone in the unit that replaced 
mine did a routine search of our computer files for continuity 
materials and found my personal e-mails, written from a combat zone to 
family and friends, including a person I had dated. Some of these e-
mails were forwarded to my commander. In Iraq, during the height of the 
insurgency, someone in the Air Force ordered a search of my private e-
mails solely to determine if I had violated ``Don't Ask, Don't Tell,'' 
and to gather whatever evidence could be used against me.
    After my unit had been back in Germany for about 6 weeks, my 
commander called me into his office and demanded I give him an 
explanation of the e-mails. I refused to discuss them because I 
considered them personal and private. I told him I would not make a 
statement until I had first consulted with a lawyer. I was relieved of 
my duties, leading nearly 200 airmen, my security clearance was 
suspended, and part of my pay was terminated. Even as my commander was 
relieving me of my duties, he assured me this was in no way a 
reflection of my performance or my abilities as an officer.
    After that day, I was in limbo for 16 months. I was still in the 
Air Force, but I was given a meaningless make-work job, while the 
process ground slowly forward. In my discharge proceeding, several of 
my former troops and one of the squadron commanders I worked for on the 
base wrote letters urging that I be retained. They expressed the 
greatest respect for me as an officer, wanted me back on the job as 
their leader, and were stunned at how the Air Force was treating me.
    Ultimately, after 16 months, I was discharged from the Air Force. 
The severance pay I received from the Air Force was half what it would 
have been if I had been separated for any other reason. As a final 
insult, on my last day of active duty, I was given a police escort off 
the base, as if I were a common criminal or a threat to national 
security.
    ``Don't Ask, Don't Tell'' failed me, despite the fact that I upheld 
my end of this law by never disclosing my private life. Never once in 
my 13-year career did I make a statement to the military that violated 
``Don't Ask, Don't Tell,'' despite pressure from my commander to do so.
    The law also failed the Air Force. There was a considerable 
disruption to my squadron's unit cohesion after I was fired and 
replaced by a far more junior officer, with less training and 
experience. This had a negative effect on morale and unit cohesion and 
the mission suffered as a result. Approximately a year after I was 
relieved of my duties, my wing commander recommended I be promoted to 
lieutenant colonel, even though the Air Force was actively pursuing a 
discharge for me.
    Being relieved from my duties as a 13-year career officer, enduring 
a 16-month administrative proceeding, and finally being discharged was 
devastating to me. I felt betrayed by my country and treated as a 
second-class citizen, after I had repeatedly risked my life in its 
defense on foreign soil. I understood the constraints of living under 
``Don't Ask Don't Tell,'' and never imagined I would become a 
statistic, since I abided by its basic premise, of never disclosing any 
aspect of my private life.
    My DD-214 discharge paper from the military categorizes the reason 
for my separation as ``homosexual admission.'' I refused to sign this 
form as I never once acknowledged anything to the military. Any time I 
have applied for a Federal job, potential employers now see this on my 
military record. I am now considered unfit for military service, and 
yet our Nation has actively recruited convicted felons, drug abusers, 
and high school dropouts. As a result of ``Don't Ask, Don't Tell'' and 
how the Air Force discharged me, I am now forced to reveal aspects of 
my private life to complete strangers, or to lie about why I am no 
longer in the military.
    I only recently decided to tell my story as an example of a career 
of service to this country cut short by this law. Multiply my story by 
more than 14,000 and you begin to understand the magnitude of this 
discrimination. Since I've gone public with my story I've received 
numerous e-mails thanking me for giving a voice to those who have none 
on this issue. Some of these servicemembers are currently serving in 
harm's way.
    My greatest desire now is to return to active duty as an officer 
and leader in the U.S. Air Force, protecting the freedoms of a nation 
that I love; freedoms that I myself was not allowed to enjoy while 
serving in the military. This is my calling in life, please allow that 
to happen.
    Thank you.

    Chairman Levin. Thank you very much, Mr. Almy.
    Ms. Kopfstein.

   STATEMENT OF JENNY L. KOPFSTEIN, FORMER LIEUTENANT JUNIOR 
                        GRADE, U.S. NAVY

    Ms. Kopfstein. Good morning, Mr. Chairman, Senator McCain, 
Senators.
    My name is Jenny Kopfstein. I joined the Navy in 1995 when 
I entered the Naval Academy. At the Academy, I majored in 
physics, and I was commissioned in 1999. I served openly as a 
lesbian officer for 2 years and 4 months before I was 
discharged under ``Don't Ask, Don't Tell'' in 2002.
    The Naval Academy teaches you about honor and integrity. It 
places a special emphasis on these values. On the very first 
day, they give you uniforms, shoe polish, Brasso, and begin 
teaching you about the Academy's Honor Concept. The Honor 
Concept starts out, ``Midshipmen are persons of integrity. They 
do not lie, cheat, or steal.''
    When I was a senior midshipman, I was an investigator for 
the Honor Staff. I investigated midshipmen who were accused of 
violating the Honor Concept. This experience brought home to me 
the importance of integrity and just what it means not to lie.
    I graduated from the Naval Academy and became a surface 
warfare officer. I received orders to the cruiser USS Shiloh. I 
was excited and happy to go serve on a combatant ship.
    It was difficult being on the ship and having to lie, or 
tell half truths to my shipmates. Under ``Don't Ask, Don't 
Tell,'' answering the simplest questions can get you kicked 
out. If a shipmate asks what you did last weekend, you can't 
react like a normal human being and say, ``Hey, I went to a 
great new restaurant with my partner. You should try it.'' An 
answer like that would have gotten me kicked out of the Navy. 
But, if you don't interact like that with your shipmates, they 
think you're weird and it undermines working together as a 
team.
    So, after being on the ship for a while, and feeling deeply 
conflicted between the requirements of ``Don't Ask, Don't 
Tell'' and the Navy's core values, I wrote a letter to my 
commanding officer and told him I was a lesbian, because I felt 
like I was being forced to lie. I didn't want to get out of the 
Navy, and I said so in my letter. I wanted to stay and serve 
honorably, and to maintain my integrity by not lying about who 
I was.
    After I wrote the letter, I continued to do my job on the 
ship to the best of my ability. We went on a 6-month deployment 
to the Middle East. I qualified as Officer of the Deck, and was 
chosen to be Officer of the Deck during general quarters, which 
is a great honor.
    During all this time, I'm proud to say I did not lie. I had 
come out in my letter officially, and I came out slowly over 
time to my shipmates. I expected negative responses. I got 
none. Everyone I talked to was positive, and the universal 
attitude was that ``Don't Ask, Don't Tell'' was dumb. I served 
openly for 2 years and 4 months.
    One thing that happened during that time was the captain's 
choosing me to represent the ship in a ship-handling 
competition. I was the only officer chosen from the ship to 
compete. My sexual orientation was known to my shipmates by 
this time. Nobody griped about the captain choosing someone 
being processed for discharge under ``Don't Ask, Don't Tell'' 
to represent the ship. Instead, a couple of my fellow junior 
officers congratulated me and wished me luck in the 
competition. I competed by showing the admiral my ship-driving 
skills and won the competition.
    During the time I was serving openly, I earned my Sea 
Service Deployment ribbon, and my Surface Warfare Officer pin. 
During my pin ceremony, the captain took his own pin off his 
uniform and pinned it on mine. That was one of my proudest 
moments.
    My open service had a positive impact on the ship's morale. 
I was able to treat my shipmates like human beings, and we 
could interact on a personal level. One time I was walking down 
the passageway on the ship and a senior chief petty officer 
stopped me and asked, ``Ma'am, may I speak to you for a 
minute?'' My first thought was, ``Uh-oh, what is this going to 
be about?'' We stepped into an empty room, and he pulled out 
his wallet. He showed me a picture of a teenage boy, ``This is 
my son, and he's gay. I'm really proud of him.'' I was so 
shocked I didn't know what to say. Finally, I said, ``Wow. 
Thank you, Senior Chief.'' We could not have had that 
interaction if I was not out. Normal people interact and talk 
about their families.
    My commanding officer wrote in my fitness report in 2002 
that my sexual orientation has not disrupted good order and 
discipline onboard the U.S.S. Shiloh. ``Don't Ask, Don't Tell'' 
has long been defended as necessary to preserve good order and 
discipline. It seems to me that the captain of a ship in the 
United States Navy is the most qualified judge of good order 
and discipline among his crew.
    On my assignment after I left the ship, my new commanding 
officer awarded me the Navy and Marine Corps achievement medal, 
which is an individual award. He knew about my sexual 
orientation from the first moment I arrived at his command, but 
it made no difference to him.
    During my service on the ship, I had two captains because 
there was a change of command while I was there. Even though 
they were four grades above me, both of them came and testified 
at my ``Don't Ask, Don't Tell'' discharge hearing to say they 
were opposed to kicking me out.
    So, 2 years and 4 months after coming out in my letter and 
serving openly I was discharged under ``Don't Ask, Don't 
Tell.'' I should not be forced to hide who I am. When I was 
closeted, the pain ate away at the core of my being. The crew 
of my ship was my extended family, and being in the military is 
not a 9-to-5 job. A lot of the time when stationed on board a 
ship, going home is not even an option. I lived, worked, ate, 
slept, and went on liberty with that crew. Keeping parts of my 
life secret and separate was an incredible burden. It is an 
unnecessary burden, and no American soldier or sailor should be 
forced to bear it.
    I made a commitment to the Navy when I joined to serve 5 
years after graduation from the Naval Academy. I've only gotten 
to serve 3 and a half so far. I want the opportunity to live up 
to my commitment and serve out the rest of my time with honor. 
The way I see it, I owe the Navy a year and half more.
    There are 66,000 lesbian and gay soldiers, sailors, airmen, 
and marines who are currently serving this country in our Armed 
Forces. They couldn't be here today because they are forced to 
be silent. I am here before you as living proof that this law 
is wrong and being forced to serve in silence is wrong. It's 
time for a change. I love the Navy. I would still be serving 
but for this law.
    Thank you.
    [The prepared statement of Ms. Kopfstein follows:]
                Prepared Statement by Jenny L. Kopfstein
    My name is Jenny Kopfstein. I joined the Navy in 1995 when I 
entered the Naval Academy. At the Academy, I majored in Physics, and I 
was commissioned in 1999. I served openly as a lesbian officer for 
almost 2\1/2\ years before I was discharged under ``Don't Ask, Don't 
Tell (DADT)'' in 2002.
    I wanted to go to the Naval Academy because when I was a kid, I 
read the book Space, by James Michener, and many of the astronauts had 
come from the Academy. I wanted to have some of the adventures they 
had. In high school, I was ``recruited'' by one of the groundskeepers, 
who was a retired Chief Petty Officer. He knew I had an interest in the 
Navy, so he talked to me about it and steered me towards an official 
Academy recruiter so I could pursue my dream of attending a service 
academy.
    The Naval Academy teaches you about honor and integrity. It places 
a special emphasis on these values. On the very first day, they give 
you uniforms, shoe polish and Brasso, and begin teaching you about the 
Academy's Honor Concept. The Honor Concept starts out, ``Midshipmen are 
persons of integrity: they do not lie, cheat, or steal.''
    When I was a senior midshipman, I was an investigator for the Honor 
Staff. I investigated midshipmen who were accused of violating the 
Honor Concept. This experience brought home to me the importance of 
integrity and just what it means not to lie.
    I graduated from the Naval Academy and became a Surface Warfare 
Officer. I received orders to the cruiser USS Shiloh. I was excited and 
happy to go serve on a combatant ship.
    It was difficult being on the ship and having to lie, or tell half-
truths, to my shipmates. Under DADT, answering the simplest questions 
can get you kicked out. If a shipmate asks what you did last weekend, 
you can't react like a normal human being and say, ``Hey, I went to a 
great new restaurant with my partner. You should try it out.'' An 
answer like that would have gotten me kicked out of the Navy. But if 
you don't interact like that with your shipmates, they think you're 
weird, an it undermines working together as a team.
    So after being on the ship for a while, I wrote a letter to my 
commanding officer and told him I was a lesbian because I felt like I 
was being forced to lie. I did not want to get out of the Navy. I 
wanted to stay and serve honorably, and to maintain my integrity by not 
lying about who I was.
    After I wrote the letter, I continued to do my job on the ship to 
the best of my ability. We went on a 6-month deployment to the middle 
east. I qualified as Officer of the Deck, and was chosen to be the 
Officer of the Deck during General Quarters, which is a great honor.
    During all this time, I am proud to say I did not lie. I had come 
out in my letter officially, and I came out slowly over time to my 
shipmates. I expected negative responses. I got none. Everyone I talked 
to was positive, and the universal attitude was that DADT was dumb. I 
served openly for 2 years and 4 months.
    One thing that happened during that time was the Captain's choosing 
me to represent the ship in a shiphandling competition. I was the only 
officer chosen from the ship to compete. My orientation was known to my 
shipmates by this time. Nobody griped about the captain choosing 
someone being processed for discharge under DADT and wished me luck in 
the competition. I competed by showing the admiral my ship-driving 
skills, and won the competition.
    During the time I was serving openly, I earned my Sea Service 
Deployment ribbon and my Surface Warfare Officer pin. During my pin 
ceremony, the Captain took his own pin off of his chest and pinned it 
on mine. That was one of my proudest moments.
    I tried my best to do my job, and my command was pleased with my 
work. My June 2001 Performance Report included these assessments:

          A ``top notch performer,'' ``a gifted shiphandler. Shiloh's 
        strongest Officer of the Deck. Possesses an instinctive feel 
        for ship control seldom seen in such a junior officer. . . . 
        When she has the deck, there is never any doubt who is in 
        control.'' An ``exceptional legal officer.'' ``ENS Kopfstein is 
        an outstanding officer.''

    My open service had a positive impact on the ship's morale. I was 
able to treat my shipmates like human beings, and we could interact on 
a personal level. One time I was walking down the passageway on the 
ship, and a Senior Chief Petty Officer stopped me and asked, ``Ma'am, 
may I speak to you for a minute?'' My first thought was, ``Uh-oh, what 
is this going to be about?'' We stepped into an empty room, and he 
pulled out his wallet. He showed me a picture of a teenage boy: ``This 
is my son, and he's gay, and I'm really proud of him.'' I was so 
shocked, I didn't know what to say. Finally, I said, ``Wow! Thanks, 
Senior Chief.'' We could not have had that interaction if I was not 
out. Normal people interact, and talk about their families.
    My commanding officer wrote in my Fitness Report in 2002 that my 
``sexual orientation has not disrupted good order and discipline 
onboard USS Shiloh.'' DADT has long been defended as necessary to 
preserve good order and the captain of a ship is the most qualified 
judge of good order and discipline among his crew.
    On September 11, my ship was in port at the Naval Weapons Station 
in Seal Beach, CA. On that morning, no one knew if further attacks were 
imminent. We received orders to go to sea and defend the coast of 
California. I was the Ordinance Officer, and shortly after it became 
clear we were being attacked, my first class petty officer came running 
up to me breathlessly. He said, ``Ma'am, request permission to load the 
guns!'' With the captain's permission, I gave the order: ``Load the 
guns.'' I guarantee you, my first class petty officer was not at all 
concerned about my sexual orientation on that day. We had all trained 
to do a job, to protect this country, and we were going to do it.
    My Grandfather fought in the Battle of the Bulge in World War II. 
On September 11, I thought of him. My Grandfather surely sacrificed 
more than I did, as he fought the ground war in Belgium in 1944, but I 
am his blood, and I was ready and willing to fight for my country in a 
time of crisis.
    On my assignment after I left the ship, my new commanding officer 
awarded me the Navy and Marine Corps Achievement Medal, which is an 
individual award. He knew about my orientation from the first moment I 
arrived at his command, but it made no difference to him.
    During my service on the ship, I had two captains because there was 
a change of command while I was there. Even though they were four 
grades above me, both of them wanted to come and testify at my DADT 
discharge hearing to say they were opposed to kicking me out. This is 
what they told the Board:

          Her performance during deployment was ``absolutely solid. She 
        did a great job.''

          ``I think this person has an awful lot to offer the Navy. *** 
        She's an incredible officer and she has a lot to offer. I think 
        it would be a shame for the Service to lose her.''

    I should not be forced to hide who I am. When I was closeted, the 
pain ate away at the core of my being. The crew of my ship was my 
extended family, and being in the military is not a 9 to 5 job. A lot 
of the time when stationed on board a ship, going home is not even an 
option. I lived, worked, ate, slept, and went on liberty with that 
crew. Keeping parts of my life secret, and separate, was an incredible 
burden. It is an unnecessary burden, and no American sailor or soldier 
should be forced to bear it.
    I made a commitment to the Navy when I joined to serve 5 years 
after graduation from the Naval Academy. I've only gotten to serve 3\1/
2\ years so far. I want the opportunity to live up to my commitment, 
and serve out the rest of my time with honor. The way I see it, I owe 
the Navy a year and a half more.
    America is a great country. As Steven Decatur famously said, ``My 
country! May she ever be right, but right or wrong, my country.'' I 
joined the military to serve my country. There are those among us who 
cannot, for one reason or another, and I am proud to say I am the kind 
of person who would stand up and volunteer my service. I felt pride and 
responsibility every time I put on my uniform. I was humbled by every 
enlisted person who called me ``Ma'am'' and looked to me for 
leadership.
    There are 66,000 lesbian and gay soldiers, sailors, airmen, and 
marines who are currently serving this country in our Armed Forces. 
They couldn't be here today, because they are forced to be silent.
    I am here before you as living proof that this law is wrong, and 
being forced to serve in silence is wrong. It is time for a change. I 
love the Navy, and I would still be serving but for this law.
    Thank you.

    Chairman Levin. Thank you very much, Ms. Kopfstein.
    Let's try a 7-minute first round.
    We thank all of you for your testimony.
    Mr. Almy, should somebody be forced to be silent about 
their sexual orientation in the military?
    Mr. Almy. In my opinion no, Senator. I think the ``Don't 
Ask, Don't Tell'' law is inherently in conflict with the 
Services' core value, as Admiral Mullen reflected in his 
testimony before this committee in a hearing a month ago.
    The principal core value of the Air Force is, ``Integrity 
First.'' ``Don't Ask, Don't Tell'' says that gays and lesbians 
can serve in the military as long as they're not who they are; 
as long as they lie about who they are. To me, personally, that 
was in direct violation of the core values of the Air Force.
    Chairman Levin. So, while you were willing to keep your 
orientation private, you don't feel it is the right policy or a 
fair policy. Is that correct?
    Mr. Almy. Correct, Senator.
    Chairman Levin. Now, would you like to return to the 
military, if you could?
    Mr. Almy. Absolutely. It's my greatest desire. It's my 
calling in life, and I miss the military considerably.
    Chairman Levin. General, you've been a NATO Supreme Allied 
Commander, and I assume that, as NATO Commander, that you 
discussed the issue with other military leaders of our allies. 
Is that correct?
    General Sheehan. Yes, sir. I have.
    Chairman Levin. Those allies who allow open service of gay 
and lesbian men and women, did they tell you that they had unit 
cohesion or morale problems?
    General Sheehan. Yes, sir, they did. If you don't--beg the 
indulgence.
    Chairman Levin. Sure.
    General Sheehan. Most of this committee knows that current 
militaries are a product of years of development. They reflect 
societies that they're theoretically paid to protect. The 
European militaries today are a product of the collapse of the 
Soviet Union. Nations, like Belgium, Luxembourg, the Dutch, et 
cetera, firmly believed there was no longer a need for an 
active combat capability in their militaries. As a result, they 
declared a peace dividend and made a conscious effort to 
socialize their military. That included the unionization of 
their militaries. It included open homosexuality, demonstrated 
in a series of other activities, with a focus on peacekeeping 
operations, because they did not believe the Germans were going 
to attack again or the Soviets were coming back.
    That led to a force that was ill-equipped to go to war. The 
case in point that I'm referring to is when the Dutch were 
required to defend Srebrenica against the Serbs. The battalion 
was under-strength, poorly led, and the Serbs came into town, 
handcuffed the soldiers to the telephone poles, marched the 
Muslims off, and executed them. That was the largest massacre 
in Europe since World War II.
    Chairman Levin. Did the Dutch leaders tell you it was 
because there were gay soldiers there?
    General Sheehan. It was a combination----
    Chairman Levin. But, did they tell you that? That's my 
question.
    General Sheehan. Yes.
    Chairman Levin. They did?
    General Sheehan. They included that as part of the problem.
    Chairman Levin. That there were gay soldiers----
    General Sheehan. That their----
    Chairman Levin.--among----
    General Sheehan. The combination----
    Chairman Levin.--the Dutch force.
    General Sheehan.--was the liberalization of the military, a 
net effect of, basically, social engineering.
    [After the hearing, General Sheehan submitted the following 
information as an insert for the record.]

    My response was repeatedly interrupted and I was unable to complete 
my statement on why U.S. forces have to be different from European 
force like the Dutch.
    The premise of my response was that U.S. troops have to have a 
different focus and point of view from other militaries because of the 
need to deploy quickly to isolated worldwide locations, fight on 
arrival, and win. This unique capability allows other nations the 
opportunity to participate within their capability and national 
caveats.
    You have to look at a nation's military forces on a continuum of 
decisions. Armed Forces reflect the choices and priorities of their 
governments. Issues like unions in the military, a focus on peace 
keeping, emphasis on social programs, et cetera, all have an effect 
positive or negative on unit cohesion and effectiveness. I used 
Srebrenica as an example of the unintended consequence of policies that 
at the time were thought to be acceptable, but in the end did not 
contribute to unit combat effectiveness. Moreover the rules of 
engagement in Srebrenica were inappropriate for the environment in 
which the battalion was placed. The battalion was not equipped for the 
threat profile they faced. Most importantly, the political leadership 
from the United Nations on down failed to adjust their mission and 
rules of engagement for the reality on the ground. The failure on the 
ground in Srebrenica was in no way the fault of the individual 
soldiers. The corporals and sergeants executed their orders based on 
the established priorities of the political authorities and the rules 
of engagement.

    Chairman Levin. You said that no special accommodations 
should be made for any member of the military.
    General Sheehan. Yes, sir.
    Chairman Levin. Are members who are straight, who are 
heterosexual, allowed, in our military, to say that they are 
straight and heterosexual? Are they allowed to say that without 
being discharged?
    General Sheehan. Are they allowed to----
    Chairman Levin. Yes.
    General Sheehan.--declare the sexuality?
    Chairman Levin. Yes. Are they allowed to say that, ``Hey, 
I'm straight. I'm heterosexual''? Can you say that without 
being discharged?
    General Sheehan. There's no prohibition, to my knowledge.
    Chairman Levin. Is that special accommodation to them?
    General Sheehan. I wouldn't consider it special 
accommodation.
    Chairman Levin. Why would it be a special accommodation, 
then, to someone who's gay, to say, ``Hey, I'm gay''? Why do 
you call that ``special''? You don't call it ``special'' for 
someone heterosexual or straight. Why do you believe that's a 
special accommodation to somebody who is gay?
    General Sheehan. I think the issue, Senator, that we're 
talking about really doesn't have a lot to do with the 
individuals. It has to do with the very nature of combat. 
Combat is not about individuals, it's about units. We're 
talking about a group of people who declare, openly, sexual 
attraction to a particular segment of the population, and 
insist and continue to live in the intimate proximity with 
them. That, by law----
    Chairman Levin. But, you allow that for heterosexuals.
    General Sheehan. Yes.
    Chairman Levin. You don't have any problem with that.
    General Sheehan. Don't have a problem with that.
    Chairman Levin. You don't have----
    General Sheehan. But, that----
    Chairman Levin.--any problem with men and women serving 
together, even though they say that they're attracted to each 
other.
    General Sheehan. That's correct.
    Chairman Levin. That's not a special accommodation.
    General Sheehan. No.
    Chairman Levin. Okay. But, it is special to allow----
    General Sheehan. It is, because it identifies a group as a 
special group of people who, by law, make them ineligible for 
further service.
    Chairman Levin. But, the whole issue is whether they ought 
to be ineligible. Whether we ought to keep out of--from our----
    General Sheehan. That----
    Chairman Levin.--service----
    General Sheehan. That's the debate. The current----
    Chairman Levin. Right.
    General Sheehan.--the current law clearly says----
    Chairman Levin. I know what the law says. The question is 
whether we ought to change the law.
    General Sheehan. My recommendation is no.
    Chairman Levin. No, I understand. Can you tell us what 
Dutch officers you talked to who said that Srebrenica----
    General Sheehan. I----
    Chairman Levin.--was in part caused because there were gay 
soldiers in the Dutch Army?
    Chairman Levin. The Chief of Staff of the Army, who was 
fired by the Parliament because they couldn't find anybody else 
to blame.
    Chairman Levin. Who was that?
    General Sheehan. Hank Von Bremman.
    Chairman Levin. Pardon?
    General Sheehan. Hank Von Bremman.
    Chairman Levin. All right. Why is the burden to end a 
discriminatory policy based on people who would end the 
discriminatory policy? Why do you say that people who want to 
end the policy have to show that it would improve combat 
effectiveness? If we're satisfied it would not harm combat 
effectiveness, and for many who would be allowed to serve, that 
they would be then permitted to serve without discrimination 
and without harm, why is that not good enough for you?
    General Sheehan. Because the force that we have today is 
probably the finest fighting force in the world.
    Chairman Levin. Maybe we could have an equally fine or even 
a better force, but if it's----
    General Sheehan. No----
    Chairman Levin.--equal----
    General Sheehan.--I think the----
    Chairman Levin.--if it's equally----
    General Sheehan.--burden of----
    Chairman Levin.--fine--if you could be satisfied that there 
would be no harm to combat cohesion or effectiveness, would 
that be satisfactory to you?
    General Sheehan. No, I think it has to be demonstrated, 
Senator.
    Chairman Levin. That there be an actual improvement.
    General Sheehan. That we are--an actual improvement.
    Chairman Levin. ``No''----
    General Sheehan. The reason----
    Chairman Levin.--``harm'' wouldn't be good enough for you.
    General Sheehan. No, the reason I----
    Chairman Levin. Pardon?
    General Sheehan.--the reason I say that, Senator, is 
because we've gone through this once before during our 
lifetime--you were in the Senate at the time; it was called 
``The Great Society''--when it was deemed that we could bring 
into the military Category IVs and Vs, and help the military 
out, and make it part of a social experiment. Those Category 
IVs and Vs almost destroyed the military.
    Chairman Levin. I don't know what that has to do with this 
issue.
    General Sheehan. It has to do with the issue of being able 
to demonstrate that the change in policy is going to improve 
things. We were told that this was going to help out combat 
deployable strength. It didn't. It did just the opposite. It 
drove people out. So, I think the burden has to be on 
demonstrating that something is going to become better, not 
hoping that it'll become something better.
    Chairman Levin. Yes. I think the burden to maintain a 
discriminatory policy is on the people who maintain the policy, 
not on the people who want to end it.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    I thank the witnesses.
    I'd like to ask all three witnesses, do you have any 
objection to a thorough, complete review of the present 
implications of the issue, as to whether it's working or not, 
and whether it needs to be changed, and, if so, how?
    Do you have a problem with that Ms. Kopfstein?
    Ms. Kopfstein. No, Senator. I don't have a problem with a 
review. I think it's clear that the law does need to be 
changed, because it's unevenly----
    Senator McCain. But, you don't have a problem with a 
review.
    Ms. Kopfstein. No, sir.
    Senator McCain. Mr. Almy?
    Mr. Almy. Senator McCain, actually I do. From the 
standpoint that this----
    Senator McCain. You have a problem with a thorough review--
--
    Mr. Almy. I have problem with----
    Senator McCain.--taking the input of the men and women in 
the military, the views of the Service Chiefs, as to whether it 
will enhance battle effectiveness or harm battle effectiveness, 
whether it should be maintained or not. Do you have a problem 
with that review?
    Mr. Almy. I do, Senator. From the stand----
    Senator McCain. Thank you. Go ahead.
    Mr. Almy. From the standpoint that we've not done this on 
any other issues of change with the military, as far as, most 
recently, putting women in submarines, women at the Service 
Academies. We did not survey the forces then, under those 
issues. The military is not a democracy. I don't see this issue 
as any different, Senator.
    Senator McCain. Thank you.
    General, let me get to the heart of the question here 
that's being posed by those who want this law reversed. Why 
isn't it sufficient to argue that sexual orientation is 
irrelevant to combat skills, and that, with proper training and 
leadership, openly gay or lesbian soldiers or marines can be 
relied on to perform as well as any other soldier or marine?
    General Sheehan. Senator, in my experience, homosexual 
marines create problems on the battlefield. Let me give you a 
case in point.
    Early years of Vietnam, 9th Marines, west of Da Nang, rifle 
company on a ridgeline combat outpost, the intelligence was 
that the North Vietnamese were going to attack that night. The 
unit was put on 50 percent alert, which meant one slept, one 
stood on watch. About 1 o'clock in the morning, a fight broke 
out in a foxhole because the young marine was being molested by 
his squad leader. To the right of that foxhole, there was a 
machinegun section that opened up and almost killed a combat 
patrol that was out in the front.
    Now, the natural question is, ``Okay. Well, fine, don't you 
have rules that deal with assault?'' and the answer to that is 
yes.
    The real issue, though, was that, after we sorted this 
whole thing out, the squad leader essentially said, ``Look, I 
was just adjusting his equipment, waking him up because I 
thought there was something out to the front.'' He denied it 
happened. The young private first class (PFC), who was new to 
the organization, said, ``Wait a minute. This really happened 
to me. He was molesting me.'' The unit took sides, naturally. 
The squad leader was a popular person, been around for a while. 
The PFC was a new kid. For about 3 days, that unit divided down 
the middle--those that supported the popular squad leader, 
those that thought the new kid might be believable.
    The only reason we sorted the issue out was because the 
sergeant committed the offense about 3 days later. But the real 
tragedy of this story is the young PFC continually insisted, 
for a long period of time, that nobody in his organization 
believed it happened. He lost faith in his chain of command.
    So, I would argue the case that, if you look at--and you 
can say that I'm some old guy that's been around for a while, 
and been--probably been around for too long. But, I read----
    Senator McCain. You're not the only one that----
    General Sheehan. Well--but, I read DOD's recently released 
sexual assault report. The thing that really bothers me about 
this issue is that the report says--and this is last year's 
report--there's been an overall 11 percent rise in sexual 
assaults in the military; 16 percent rise in Afghanistan and 
Iraq; 32--over 3,200 cases of sexual--we're not talking about 
sexual harassment, we're talking about sexual assault. Seven 
percent of those--that's about 226--male on male assaults, 
where rape and sodomy took place. DOD will clearly indicate 
that that's an underreporting.
    I would stipulate that, from my days in Vietnam in the 
early 1960s, when I had this sergeant that almost got a combat 
patrol killed, that a--226 male soldiers and marines who are 
molested--that there's something wrong with our sexual behavior 
policy.
    Senator McCain. Thank you, General.
    Mr. Almy and Ms. Kopfstein, each of you was commissioned at 
a time the ``Don't Ask, Don't Tell'' policy was in effect. 
While I understand you disagree with the policy and its effect, 
do you think you were confused about its meaning and potential 
applicability to you at the time you began your service?
    Mr. Almy. Senator, when I came in on Active Duty in 1993, I 
will admit, I think there was a lot of confusion, on a personal 
level, for myself, as well for the Nation and the military as a 
whole. I don't think----
    Senator McCain. There was confusion about the----
    Mr. Almy. I think----
    Senator McCain.--``Don't Ask, Don't Tell'' policy?
    Mr. Almy. I think the policy, when it was first implemented 
in 1993, was not well understood. I think there are still 
issues where it's not.
    Senator McCain. Did you understand it later on?
    Mr. Almy. After I was relieved of my duties. Yes, Senator.
    Senator McCain. Ms. Kopfstein, were you confused or misled 
about the meaning and applicability of ``Don't Ask, Don't 
Tell'' at the time you began your service?
    Ms. Kopfstein. No, Senator. I thought that I would be able 
to live under ``Don't Ask, Don't Tell.'' Unfortunately, I found 
out otherwise, because of the conflict between the core values 
of the Navy--honor, courage, and commitment--and the Navy 
teaching me how wrong it is to lie. To be an officer with 
integrity means that you tell the truth, and you tell the whole 
truth, even if it's unpopular.
    Senator McCain. Thank you. Although my understanding of the 
``Don't Ask, Don't Tell'' policy is, you are not asked.
    Mr. Chairman, my time is up. But, what I am confused about 
here is why there seems to be an objection to a complete, 
thorough, objective review conducted not just on the basis of 
how to repeal the law, which seems to be what the Secretary of 
Defense stated, and what seems to be some sentiment here, but--
we're in two wars. I wonder why anyone would object to a 
thorough, complete review as to assess the impact on our 
military, on our battle effectiveness in two wars, and then 
allow the Service Chiefs to render their best judgment. To 
continue to suggest a moratorium, which is basic to repeal, 
before that review is conducted is something, frankly, that I 
do not understand in a time that we are in two wars.
    I will continue to argue and fight and do whatever I can to 
make sure that we have a thorough and objective review of the 
impact on the military of a change of this law. I think the men 
and women who are serving in the military deserve nothing less.
    I thank you for the time. I yield.
    Chairman Levin. Thank you, Senator McCain.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    I want to thank the three witnesses before us today, 
because I think that the testimony you've given and the 
different points of views you have on the proposal that I'm 
privileged to cosponsor with others, to repeal ``Don't Ask, 
Don't Tell,'' really helps to elucidate the differences here. 
So, it's been to my way of thinking, a constructive discussion.
    I've said before in different places, and I'll say here, 
that it seems to me that, at a time in our country when some of 
the great institutions of country are held in disrespect--
government, business, even, to some extent, religious 
institutions--the military continues to earn and get great 
respect. Part of it is because of the call to service, the 
bravery, the success of our military. But, also, a big part of 
it is that the American military is a unique institution which 
really lives, probably more than any other institution I know 
of in our society, by values. Nobody's perfect, so people 
within the military break those values, violate them 
periodically, and they're held to account, under military 
discipline--good order and discipline, standards, and 
procedures.
    One of the values is integrity. We've talked a lot about 
that. It seems to me that one of the other values, which the 
American military has historically embraced is e pluribus 
unum--one out of many. The common cause, defense of our 
security and freedom, is the goal that overcomes every 
diversity. Because the American people are inherently diverse. 
So, over our history, immigrant groups and, more recently--a 
little bit further back, racial differences--were overcome in 
our military. There was a time that there were great fears 
about what it would mean if African Americans served next to 
caucasian Americans in our military; or women served next to 
men.
    Today, any of us who've been privileged to visit bases or 
battlefields know that the distinctions are gone, for the major 
reason--I'd quote from General Sheehan, ``Military culture is 
intentionally structured to mold individuals from all walks of 
life into members of a unit willing to sacrifice themselves for 
shared tasks.''
    That, I think, is what we're trying to do here with the 
repeal of ``Don't Ask, Don't Tell.'' It's to have gay and 
lesbian Americans who want to serve their country, and 
incidentally are not being asked--I say this respectfully, 
General Sheehan--like those Category IVs and Category Vs to go 
into the military as some kind of social experiment. They have 
been held, and they will be held, to the same high standards. 
In fact, as Major Almy said, maybe higher standards in a lot of 
cases, than others who are applying for the military.
    But, the point I want to get to--and this, I think, is key, 
and I think the various leaders of our military, civilian and 
uniformed, that have come before us have made this point--that 
repeal of the current ``Don't Ask, Don't Tell'' policy and law 
must maintain--it can only happen if it maintains the high 
standards of unit cohesion and personal conduct that makes our 
military so effective.
    So, Major Almy and Lieutenant Kopfstein, they're not asking 
for special treatment. They're asking to be treated like every 
other soldier, basically the way they perform in uniform.
    Here's the question I want to get to. The episode you gave 
of the sexual assault, General Sheehan, with one man assaulting 
another man--could have easily, and unfortunately does, happen 
more with a man assaulting a woman in uniform. In fact, by your 
numbers, a 3,200-case increase in sexual assaults last year in 
our military--you said 7 percent of them were homosexual. That 
means 93 percent were heterosexual.
    So, I know there may be fears that if we repeal ``Don't 
Ask, Don't Tell,'' there'll be behavior inconsistent with good 
order and discipline, including sexual assault. But, if that 
happens they'll be held to the same account and discipline.
    So, I wanted to ask all three of you to react to that 
statement, that all the rules of conduct in the military will 
apply, except that they'll not be forced to live a life of 
lies. They'll be held accountable, as every other marine, 
soldier, sailor, and airman is held accountable.
    General Sheehan, why don't you start first.
    General Sheehan. Senator, that's a very thoughtful 
question. My only answer, not that I would have to give you is 
that when you talk about the integration of forces--and I used 
the current DOD statistics; I haven't seen the details, because 
all I've seen is the summary--I think you have to keep in mind 
that there is a combat exclusion for women. We do not put women 
in a combat situation--foxholes, bunkers, and whatever have 
you. So if we're talking about a 7 percent male-on-male type of 
a problem--and as you say, the remainder is male-on-female--and 
we put that whole group into a combat environment, I think 
those numbers would significantly increase. That's my 
speculation, based on my experience.
    So, I think we need to be very careful about moving to 
somewhere that we don't know what the outcome is. We do know 
that the incident rate of sexual assault, not just harassment--
is on the increase. I think we need to clearly understand why 
those assaults are taking place.
    Senator Lieberman. Right.
    General Sheehan. Something is fundamentally different today 
in the military, and I don't know why. I don't know whether 
it's because the people who are coming in don't know what their 
boundaries are. I don't know whether it's the educational 
system that we're putting people through. But, clearly when you 
have a 16 percent increase in----
    Senator Lieberman. Yes.
    General Sheehan.--sexual assault, there's something that 
needs to be fixed.
    Senator Lieberman. Look, it's a very important question. It 
may have to do with the stress of battle. But, I agree with 
what you said, just to come back to the bottom line. We have 
the best military in the world. We probably have the best 
military we've ever had. I don't think, respectfully, there's 
any basis for saying that, if we repeal ``Don't Ask, Don't 
Tell,'' the number of homosexual assaults will go up. You may 
be right, but if it goes up, they'll be disciplined.
    My time is up, but I wonder if I could just, Mr. Chairman, 
ask for a quick response from Major Almy and Lieutenant 
Kopfstein, to my general premise here?
    Mr. Almy. There is no place in the military today for 
inappropriate conduct--harassment, assault--straight or gay. 
That won't change once ``Don't Ask, Don't Tell'' is repealed. 
I've seen very similar scenarios to what the general described 
between men and women--in fact, probably far more so--and they 
were dealt with swiftly and appropriately and with discipline 
and punishment. Repealing ``Don't Ask, Don't Tell'' will have 
absolutely no effect on that.
    Senator Lieberman. Lieutenant Kopfstein?
    Ms. Kopfstein. I agree with Major Almy. The Uniform Code of 
Military Justice applies to everyone, gay and straight. 
Misconduct and inappropriate behavior are dealt with in the 
military.
    Senator Lieberman. Thank you.
    Thanks, Mr. Chairman.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    General Sheehan, Mr. Almy, and Ms. Kopfstein, I'd first 
like to thank each of you for being here today and appearing 
before the committee. This is an issue that is very sensitive, 
and, frankly, it takes courage for all three of you to be here 
to talk about this in public. As this debate continues, it'll 
be imperative that we hear from many other folks who share the 
same thoughts as each of you do. Again, thank you for coming. 
Thank you for your service to our country. The fact that all of 
you served honorably should not be lost in this discussion.
    Mr. Chairman, you alluded, earlier, to some polling numbers 
of the general public in America. Let me share with the 
committee, and enter into the record, some polling numbers of 
United States military members.
    The Army Times, in February 2010, just last month, 
published a poll of a survey conducted in November 2009. Here's 
what they found: 54 percent of military members thought the 
current policy was effective in maintaining order and 
discipline; 21 percent thought it was ineffective--a 33 percent 
differential. Fifty-three percent of military members thought 
the current policy was effective in maintaining unit cohesion; 
22 percent thought it was ineffective--again, a 31 percent 
differential. Fifty percent of military members said they would 
be uncomfortable sharing a small tent or combat outpost with 
openly homosexual soldiers; 36 percent said they would be 
comfortable. Fifty-two percent of military members said they 
would be uncomfortable sharing a barracks room with openly 
homosexual soldiers; 35 percent said they'd be comfortable. 
Fifty-two percent of the military members said they would be 
uncomfortable sharing the bunk above or below an openly 
homosexual soldier; 34 percent said they would be comfortable.
    In today's political world, anyone who wins by 10 percent 
is considered to have had a landslide victory. On each one of 
those questions asked to the military, the people that truly 
count in this equation and on this issue, the margin of 
distinction is obviously significantly different.
    Let me ask a question to each one of you. I'd like to give 
you an opportunity to answer this. My fundamental argument 
against repealing this policy has been that it will likely 
negatively affect morale, unit cohesion, good order and 
discipline, and readiness.
    Let's start with you, Ms. Kopfstein. What's your opinion on 
that particular aspect of service to our military?
    Ms. Kopfstein. Senator, I'm not an expert on polling, but I 
do know the Army Times poll was conducted in a nonscientific 
way.
    I'll give you an example from my personal experience. When 
I was on the ship, I had two captains; there was a change of 
command. So, we had a change-of-command party at my first 
captain's house. He came into the wardroom, he announced the 
party, and he said, ``Everyone's invited--every officer is 
invited and everyone is allowed to bring their spouse or 
date.'' I didn't think too much of that at the time. I was 
serving openly, because I had already come out, and the captain 
of my ship specifically came up to me, after making that 
announcement in the wardroom, and said, ``Ordo,'' because I was 
the ordinance officer, ``you're allowed to bring whoever you 
want to bring to the party at my house.'' I was stunned. But, 
since it came right out of the mouth of my commanding officer, 
I took my partner to that party. When we arrived at the front 
door, the captain and his wife were standing at the door, 
greeting each guest as we came in. They greeted us warmly. We 
went inside, got a plate of food and a cocktail, and all of my 
fellow officers and their spouses were very pleased that we 
were there. Not all of them had met my partner at that point. 
They all wanted to talk to us, and frankly, we were the life of 
the party. [Laughter.]
    I met my new commanding officer at that party, and he was 
very happy to meet me and my partner. It was a very normal 
cocktail party, and that was my experience. My shipmates were 
very accepting of me.
    Senator Chambliss. Thank you.
    Mr. Almy?
    Mr. Almy. Senator, in my experience, what had a far more 
negative effect in my unit was when I was relieved of my 
duties.
    Senator Chambliss. I'm sorry. Could you talk just a little 
louder, please?
    Mr. Almy. Yes, Senator. What had a far greater negative 
effect on my unit was when I was relieved of my duties. 
Subsequently--while it's true that I was not ``out'' to my 
entire unit, subsequently, afterwards, when I had some of 
troops write letters of reference for me, it was a complete 
nonissue for my troops. They all wanted me back on the job as 
their leader, and didn't care one bit.
    The young men and women that are coming into the military 
today, fresh out of high school or college, have grown up with 
gay and lesbian characters on TV, have known gays and lesbians 
in their schools, in their communities, on their sports teams, 
and most assuredly in their military. Nearly everyone in their 
20s and 30s today serving in the military knows of at least 
someone who's gay or lesbian in their unit, and oftentimes 
these people are serving openly, with no negative or 
detrimental effects to their unit.
    Senator Chambliss. Okay.
    General Sheehan.
    General Sheehan. Senator, as I have testified, from 
personal experience in leading units in combat, this is a very 
risky proposition of an--including openly gay homosexual people 
in combat organizations.
    Senator Chambliss. Do you have any reason to believe that 
that is unique to the Marine Corps, versus other branches of 
the military?
    General Sheehan. I used to be what they call, 2IC, second 
in charge, Whiskey Company, O1 Commando, Royal Marines, and I 
was a physical fitness instructor with Special Operations at 
Fort Bragg, NC. I can assure you those two organizations, from 
personal experience, share my views.
    Senator Chambliss. Yes. General, in my view, many of our 
potential military recruits come from traditional families 
whose religious and moral beliefs likely conflict with practice 
of homosexuality. If the military allows open homosexual 
service in the core group of our military, who, by and large, 
have a traditional world view, are now pressured to accept such 
conduct, and in conduct consider it normal, and accommodate it 
within the military, what effect might that have on recruiting 
and retaining individuals from that core group?
    General Sheehan. Senator, I can't comment on hypothetical 
situations. I know that speculative people have talked about 
mass exodus, et cetera, but I have no data to say that. My 
instincts say that there is an element of truth in your 
statement, but I have no hard data that would indicate I could 
give you a number but I do know it would not sit well. But as 
the Major has indicated, there is an increasing acceptance of 
homosexuals in the military. People do know homosexuals. The 
real issue is not about the individuals; it's the effect on 
combat cohesion and performance in the battlefield.
    Senator Chambliss. Yes.
    My time is up.
    Major Almy, I would simply say to you that you came in the 
military knowing what the rules were, and you tried to abide by 
the rules, and it's unfortunate that, as you were trying to 
abide by the rules, that, because of personal intrusion--or 
intrusion into your personal email account, this arose; 
otherwise, you probably would still be serving, under current 
law, very valiantly.
    Again, to all of you, thank you for your service.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Chambliss.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman.
    I, too, want to just thank you for your testimony today, 
and your service.
    Mr. Almy and Ms. Kopfstein, although the policy is referred 
to as ``Don't Ask, Don't Tell,'' as the law is currently 
written, members of the Armed Forces are involuntarily 
separated, regardless of how their sexual orientation is 
disclosed. Under existing law, the quality of your service does 
not serve as the criteria for retention due to a presumed 
disruption to unit cohesion and discipline. During your 
discharge proceedings, what impact did the recommendations from 
your leadership within your chain of command have on the 
decision to involuntarily separate you from your Service? I 
think, Mr. Almy, you were speaking about that.
    Mr. Almy. Thank you, Senator. To my knowledge, it made 
absolutely no effect whatsoever on the Air Force's decision to 
retain me. I had commanders that I had served with. I had 
superiors, peers, and subordinates, all alike, who knew my 
record, who knew my achievements as an officer, and supported 
me, and, even though they knew the full story, they still 
wanted me retained in the Air Force, and still wanted me back 
as their leader. To my knowledge, that had zero affect on the 
Air Force's decision whether or not to retain me.
    Senator Hagan. Ma'am?
    Ms. Kopfstein. Senator, in my case, I was honored and lucky 
that both of my commanding officers came to my discharge board. 
They were not required to do so. They took time out of their 
busy schedules to come and testify on my behalf.
    The board--under ``Don't Ask, Don't Tell,'' its hands were 
basically tied. I had made an admission, and despite the 
vociferous recommendations of both of my commanding officers, 
two O6s, the board's hands were tied and they had to vote to 
discharge me.
    Senator Hagan. Mr. Almy, in your earlier discussion, I 
think you were talking about almost like a generational feeling 
of acceptance, more from the younger generation than the older 
generation, for homosexuals in the military. Can you elaborate 
on that?
    Ma'am, too.
    Mr. Almy. Senator, I think you probably hit the nail on the 
head there. In my personal experience, this is a generational 
issue. I have great respect for General Sheehan, for his 
leadership and his sacrifice to our Nation. From what I've 
seen, a lot of senior officers, senior military leaders from 
that generation, are the ones that are holding on to 
maintaining ``Don't Ask, Don't Tell,'' with notable 
exceptions--Admiral Mullen, General Powell, General 
Shalikashvili.
    In my experiences, and that of my peers, the young men and 
women coming into the military today, the 20-somethings and 
most of the 30-somethings, which is the large demographic in 
the military--for that group of people, this is largely a 
nonissue. Obviously there are some exceptions, but, as I stated 
earlier, that generation of men and women are far more 
comfortable with gays and lesbians, because chances are that 
they know one.
    Senator Hagan. General Sheehan, do you have any feelings on 
the generational attitudes?
    General Sheehan. I absolutely admit that I am old----
[Laughter.]
    Senator Hagan. We all are.
    General Sheehan.--and that my views are formed by 35 years 
of leadership in a multinational environment, U.S. troops, all 
Services. I think that, to say that those points of view count 
less than a younger generation, doesn't really look at the 
issue in its totality. I think that the points that Senator 
McCain made, about the necessity for a true review of what--
this issue--would be very helpful, because there are an awful 
lot of opinions. Some of my opinions are exactly what they are, 
they're my opinions, based on experience, but they don't, in 
all cases, reflect what reality really is.
    So, I think that, as we go through this process, as I said 
in my remarks, if you can demonstrate this, that it would 
improve combat capability, clearly demonstrate, then change the 
law. But, it ought to be based on fact those facts come from 
junior people, senior people, especially people at the company 
gunnery sergeant, first sergeant level, who lead these kids on 
a day-to-day basis.
    Senator Hagan. Ma'am?
    Ms. Kopfstein. Senator, I agree with Major Almy. The 
younger generation definitely has a different view on this 
issue.
    I'll give you a personal story. I certainly don't have the 
General's experience, but, on September 11, 2001, my ship was 
in port, in Seal Beach, CA, when we were attacked. I was 
standing in the wardroom, watching the television, watching 
events unfold. One of the young petty officers that worked for 
me ran into the wardroom and said, ``Ma'am. Ma'am. Request 
permission to load the guns.'' I was the ordinance officer, so 
I was responsible for our antiaircraft and self-defense 
weapons. So, I turned to the captain, and I said, ``Sir, 
request permission to load the guns.'' He said, ``Permission 
granted,'' and we did. I can tell you, for a fact, in that 
moment, neither my captain nor the petty officer that worked 
for me cared one whit about my sexuality.
    Senator Hagan. Thank you.
    The phrase ``Don't Ask, Don't Tell'' implies a mutual 
agreement, where the Services would not inquire about the 
sexual preferences of our members, and the military personnel 
would not publicly articulate your sexual orientation. However, 
under ``Don't Ask, Don't Tell,'' we still have instances of 
very capable servicemembers being involuntarily separated due 
to investigations initiated on tips provided by third parties.
    Mr. Almy, in your situation, do you believe that private 
correspondence, via email, while deployed constitutes a breach 
of the existing policy? Or do you believe that your case serves 
as an illustration of how the policy is flawed?
    Mr. Almy. Senator, I think it's probably a little of both. 
I didn't tell, the Air Force asked, and I refused to answer the 
question. So, I think, while it's true I never made a 
personal--or a public statement to the military, I was still 
thrown out. I think that illustrates a flawed implementation of 
the current law. My understanding of what Secretary Gates has 
called for review, as far as the so-called ``third-party 
outings,'' would have had a direct bearing on my case. In all 
likelihood, I would still be on Active Duty.
    Beyond that, I think it also illustrates that this law is 
just making our Nation and our military weaker by discharging 
qualified men and women who are patriotic and whose only crime 
happens to be that they might be gay or lesbian. All the while, 
we're actively recruiting people who are under-qualified to 
fill some of those vacancies.
    Senator Hagan. Thank you, all of you.
    Chairman Levin. Thank you, Senator Hagan.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    I want to thank all of you for your distinguished service 
to our country and for your willingness to appear today in 
front of us and give us your thoughts on this very important 
matter.
    As has already noted, we are fighting two wars. We have to, 
I think, be very concerned about readiness, combat 
effectiveness, cohesion, recruitment, retention, all those 
issues. This would, of course, represent a very significant 
change from a policy that's been well-established for some 
time, and by all indications, with some exceptions, has worked 
quite well. So, it's something that I think needs to be very 
carefully considered before any sort of a change is made.
    I would ask this question of you, General Sheehan. 
Secretary Gates, last month, established this--as we all know, 
a high-level working group within DOD to review the issues 
associated with properly implementing a repeal of ``Don't Ask, 
Don't Tell.'' The working group is to produce its findings and 
recommendations in the form of an implementation plan by 
December 1 of this year. Secretary Gates subsequently provided 
what he called ``the terms of reference'' for this working 
group. I don't know how familiar you are with those, but do you 
believe that ``the terms of reference'' that are provided by 
the Secretary will permit a fair review of the issue, or are 
there elements that, in your opinion, are missing from ``the 
terms of reference,'' that should be included?
    General Sheehan. Senator, I have not read ``the terms of 
reference'' for that particular report. My only comment would 
be is, on an issue that is this serious, it clearly has to be a 
fair, honest, open evaluation.
    The second comment I would make is that, as this report 
comes close to finalization, that there be a genuine dialogue 
between the Service Chiefs, this committee, and the Secretary, 
so this doesn't become a sensationalized event. This is too 
serious an event to be left to a political event.
    Number one, the report has to be absolutely scrupulously 
above-board, not biased. Again, I have to assume that Senator 
McCain is correct, because he usually is in most of these 
issues--is that if the report is biased toward ``how to,'' then 
I think it's flawed to begin with.
    Senator Thune. Yes.
    Let me direct this question to the entire panel. Admiral 
Mullen has made it clear that he supports the repeal of ``Don't 
Ask, Don't Tell,'' but we've also heard from some of the 
Service Chiefs that they want the current policy to remain in 
place. General Conway, who's the Commandant of the Marine 
Corps, said in testimony before this committee that: ``My best 
military advice to this committee, to the Secretary, and the 
President, would be to keep the law such as it is.'' General 
Schwartz, Chief of Staff of the Air Force, has said that: 
``This is not the time to perturb a force that is stretched by 
combat operations in Iraq and Afghanistan, and important 
missions elsewhere, without due deliberation.'' General Casey 
has also weighed in on that issue in that direction.
    I guess the question I would ask all of you is, how should 
we weigh the fact that there isn't a consensus among the 
Service Chiefs with regard to the issue of repealing ``Don't 
Ask, Don't Tell''?
    General, if you want to start----
    General Sheehan. I think that's the value, Senator, of 
having this unbiased report. That starts the basis of a real 
dialogue. As I said before, I would hope that as the report 
becomes final, that it becomes a real discussion between this 
committee, the Service Chiefs, and the secretariat. So, I would 
hope, out of that process, you would then be able to make an 
informed decision that's based on fact, not opinion.
    Senator Thune. Thank you.
    Major?
    Mr. Almy. Senator, my understanding is that Secretary 
Donley, the Secretary of the Air Force, has basically 
contradicted General Schwartz and said that now is the time for 
repeal. I understand that there is some disagreement among the 
Service Chiefs, among the Secretaries. Secretary Gates and 
Admiral Mullens have both called for repeal, as well as for the 
study of how to repeal ``Don't Ask, Don't Tell.''
    From my own limited understanding of this, there's been 
ample research, both within the military and academia, from the 
militaries of foreign nations that have dealt with this issue, 
and they all showed that this was basically a nonissue. If you 
talk to the leadership of foreign militaries that have already 
dealt with this and have implemented repeal, they will all tell 
you that it was a great success. I think that to say that 
America is any less, that we have a less capable military of 
dealing with this issue, or a less professional force, I just 
think it's simply not true. Clearly we have the greatest 
military in the world, and I think that this is an issue that 
we can deal with. Quite frankly, I think a few years from now 
we're going to look back on this and say: ``What was all the 
fuss about?''
    Senator Thune. Ms. Kopfstein.
    Ms. Kopfstein. Senator, I agree that our military is the 
most professional, most capable military in the world. Repeal 
of this law will be a nonevent. The Service Chiefs have 
recommended against repeal, and there may be some division, but 
Congress is the final decisionmaker. The law is wrong, and it's 
unevenly applied. We're Americans too, and we just want to 
serve.
    Senator Thune. I think the Service Chiefs have--as I have 
noted here, there's consensus among the Service Chiefs that it 
should not be repealed. There may be others in the 
administration, I know I'm aware of, that have a different view 
of that, but that, I think, is an important consideration 
obviously we have to weigh too as we evaluate this.
    General, at the same time that Secretary Gates has stood up 
this working group to study how to implement repeal of ``Don't 
Ask, Don't Tell,'' he's also asked DOD lawyers to come back in 
45 days with proposed changes on how to, within existing law, 
enforce this policy in a more humane and fair manner. That is a 
different approach to this issue, and that is, that we should 
be seeking ways to update or improve ``Don't Ask, Don't Tell,'' 
rather than throw it out. Are there any approaches that we, as 
Congress, could take to improve the ``Don't Ask, Don't Tell'' 
statute, rather than taking what would be a very significant 
and dramatic departure from existing policy and repeal it 
altogether?
    General Sheehan. Senator, I think that, because of the 
scope of the responsibility of this committee, you have a lot 
of opportunities, in various bills and things that come before 
this committee, to do three things. First, I think that, as 
we've discussed, and in this ``terms of reference'' for this 
study, to make sure it's absolutely scrupulously honest and 
organized.
    Second, is that ``Don't Ask, Don't Tell,'' as a policy, is 
very, very imperfect. I think Congress recognized that when it 
passed the 1993 law. They knew there were going to be 
ambiguities, and they knew that is was going to lead to 
problems, and that's why it didn't include it in the law.
    Over the last 5, 10 years since it was passed, there has 
been being built, in the public's mind, a perception of 
inevitability that this law is going to get changed. That, I 
think, in turn, leads to young men and women who think they're 
going to come into the military and the law's going to be 
changed on their watch. It may ultimately be changed, but not 
necessarily on their watch. That puts them in a very difficult 
position, because they come in with the expectation that this 
law is going to change.
    I think that one of the things this committee could do is 
take a neutral position that says, ``We're examining this law'' 
that says, ``It should be''--or not--or that it--``to 
investigate whether it is--should be changed,'' not that ``is 
going to be changed,'' because you're creating, in the minds of 
young Americans, not a false expectation, but a hope that may 
not be realized.
    The last comment I would make is that, in order to 
understand sexual behavior in the military, you can't do that 
in just the isolation of the ``Don't Ask, Don't Tell'' clause. 
As I said earlier in my remarks, there is something that--going 
on within the American military today that is fundamentally 
flawed, when you have a 16 percent increase in sexual assaults 
in a combat zone. I don't know what the cause of that is, but 
as you investigate--all things kind of come together in one 
pot. So, if you try to parse this out and just deal with this, 
I think you'll come up at an imperfect solution.
    I think this committee has a tremendous responsibility and 
a tremendous opportunity to rise above the political debate and 
do something that is really helpful to the American military.
    So I would recommend those three things: one, a clear 
statement of what the purpose of this study is; two, tampen 
down the expectations what allows young kids to come in, 
thinking that something's going to be different tomorrow 
morning, when it may not be; and three, understand--truly 
understand--where we're going with the sexuality in the 
American military, because it is a problem, a real problem.
    Senator Thune. We need as candid and honest of assessments 
as we can possibly get about the impacts. In my judgment, 
bottom line is readiness, effectiveness, all those issues as we 
evaluate this.
    We appreciate all of your candor, and your being here 
today.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Thune.
    Senator Burris.
    Senator Burris. Thank you, Mr. Chairman.
    I want to add my thanks to all three witnesses, who 
certainly have served this country well, and protected us. I 
just want to try to raise some questions.
    General, I will challenge you and the rest on age. I'm 
pretty much your age. If you've served 35 years in, I think 
that you have----
    General Sheehan. Sir, I'll concede to you.
    Senator Burris. I'm sorry?
    General Sheehan. I will concede age to you. [Laughter.]
    Senator Burris. Thank you. I can remember, General, when I 
was attorney general of my State, how difficult it was for me 
to make a change. But, on my staff there was a young lesbian 
lady who would sit down with me each day and explain to me the 
problems, of persons who were lesbian or gay, that never 
occurred to me because I grew up in a different era. We talked 
about them, we laughed about them. It was all these derogatory 
terms that we used to use.
    General, it also deals with the racial question. Do you 
know a fellow named Jackie Robinson? You ever heard of him? You 
talk about the brightest and the best. We don't know if we have 
the brightest and the best serving in our Military Service 
until we let everyone serve with their best distinction, best 
ability. The brightest and the best may not be.
    You hear of a couple tennis players named the Williams 
sisters? You ever heard of the young man who had a little 
personal problem called Tiger Woods? We didn't know how golf 
really could be until a black person got into the competition. 
They were all eliminated from the game of golf. They were all 
eliminated from the game of baseball, General. They were all 
eliminated from all types of sports which were for whites only. 
Now, we're saying the military is for straights only.
    General, I think that we need to put a moratorium on this 
situation right now. Don't let anyone be discharged from the 
military because of their sexual orientation until we can 
change this law, which I'm certainly supporting as a cosponsor 
on Senator Lieberman's bill to change the law.
    But, General, could you give me a little insight of your 
background? Did you ever command black soldiers under your 
command?
    General Sheehan. Sir, the American military has been 
integrated since President Truman was a President of the 
United----
    Senator Burris. 1947, by executive order, sir.
    General Sheehan. I have never commanded a unit that there 
were not Hispanics, blacks, whites, and Orientals. At one time 
during the Vietnam war, as both Senator Lieberman and the 
Chairman will remember, 65 percent of my rifle companies were 
black. They sustained 40 percent of the casualties in Vietnam. 
They understand what it means to be in harm's way. So, race in 
the military is not an issue. This institution that I 
represent----
    Senator Burris. Pardon me, General, I have to interrupt 
you.
    General Sheehan.--has the finest record of integration than 
any institution in this country of ours.
    Senator Burris. Absolutely. How long did it take that to 
take place? What happened in World War II, with my uncles and 
my uncles-in-law when they were discriminated against? 
Prisoners were being brought back from Germany, and the black 
soldiers that were guarding them couldn't even ride in their 
cars, they were put back in the back cars because of the color 
of their skin. That's how far America has come. For you to now 
command those men, and they're fighting and dying for us, and 
at one time, because of the color of their skin, they could not 
serve this country. They fought and clawed to get there, to 
have an opportunity to serve. These are the same things with 
the gay and lesbian people. They want to serve. That's all 
they're asking.
    Continue, General, I'm sorry.
    General Sheehan. Senator, I think that if you go back to 
the 1993 discussions and hearings on ``Don't Ask, Don't Tell,'' 
there's a very rich history of discussion with Cal Waller, 
Colin Powell, and the committee about this very issue, when 
Congressman Pat Schroeder was trying to equate this to a racial 
issue. Both Cal Waller and Colin Powell objected strenuously to 
the analogy. Many of the black leaders and the black marines 
that I was with at the time objected to the concept that their 
civil rights movement was being hijacked by gays and lesbians. 
I'm not an expert on this issue. But, I will only defer to both 
Cal Waller and Colin Powell, and refer this good Senator to 
their testimony back in 1993.
    Senator Burris. Do you know what Colin Powell's position is 
now on gays serving in the military, General?
    General Sheehan. Yes, sir, I do. He has said that he thinks 
it's time to conduct this review. He has deferred to the 
Service Chiefs on their position and essentially says, ``If 
they are for changing the law,'' he will support that.
    Senator Burris. I'm sorry. I think we just have correction 
on the record. My understanding is, the General says that it's 
time to end this ``Don't Ask, Don't Tell'' policy. That's what 
my understanding of the retired Joint Chief of Staff's position 
is. But, we can certainly double check that.
    Do you have any statistics, General, on how many 
heterosexual rapes there are in the military?
    General Sheehan. The last report I saw, Senator, was the 
numbers that I quoted, that 87 percent of the 3,200-something 
were male-on-female.
    Senator Burris. So then there could be male-on-male or 
female-on-male. In other words----
    General Sheehan. The male-on-male is 7 percent of that----
    Senator Burris. Yes.
    General Sheehan.--number. So--but, again, as DOD says, 
that's an underreported statistic, so the number--the actual 
number may be----
    Senator Burris. Sure.
    General Sheehan.--a lot larger.
    Senator Burris. You're probably correct, and based on that, 
General, there are heterosexual rapes in the military, as well 
as there probably would be if--that takes place under young 
people as in our natural society. They're still human beings. 
God forbid, there will be probably homosexual, unfortunately, 
rapes in the military. I mean, that's not any reason for them 
not to be able to serve openly and forthrightly.
    My time is up, but I'm going to hope there's a second 
round, Mr. Chairman.
    I want to commend these two brave men and women who put 
their life on the line and, for no reason of their own, they 
were discharged from the military because of their sexual 
orientation. I suggest that we have a stop order issued on 
anyone else being discharged at this point until this situation 
is satisfied.
    Very quickly, Major Almy, would you agree to that, that we 
probably should stop right now, so that none of your colleagues 
who are being investigated right now should be discharged?
    Mr. Almy. I would agree, Senator. Any further man or woman 
that's discharged under ``Don't Ask, Don't Tell''--just because 
of who they are, I think is an unacceptable loss to our 
military.
    Senator Burris. What would you say, Lieutenant?
    Ms. Kopfstein. Senator, I agree. No one should be separated 
from the military anymore because of this antiquated law, but 
it does need to be repealed in full.
    Senator Burris. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Burris.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    General, I think the data you just used needs some 
clarification, in terms of African American casualties in 
Vietnam. With all due respect to everyone who served--and I 
grew up in the military. I grew up in the military at a time 
when it had been racially integrated. I'm very proud of 
everybody's service. But, I've done a lot of writing and 
reporting on this issue, including 4 years on the House 
Veterans Committee as a committee counsel years ago. The 
statistics that we had at that time were that African Americans 
were about 13 percent of the age group, about 12 percent of the 
people in the military, and about 12 percent of the casualties, 
and about 10 percent of those killed in action. So, they 
certainly did their share, along with everyone else. But, if 
you're saying 40 percent, you may be talking about one rifle 
company at one particular piece of time, or something. I don't 
know where that came from.
    General Sheehan. No, sir. The 40 percent number comes from 
a study that was done on those that were inducted into the 
military during the Project 100,000 era.
    Senator Webb. So, you're talking about----
    General Sheehan. I'm talking about a specific group of 
people during that----
    Senator Webb. The Project 100,000----
    General Sheehan. Project 100,000----
    Senator Webb.--draftee----
    General Sheehan.--draftees that were brought----
    Senator Webb.--the casualties among that----
    General Sheehan. Yes.
    Senator Webb.--group.
    General Sheehan. Right.
    Senator Webb. Well, now what I'm talking about is the 
overall----
    General Sheehan. Yes, sir. I----
    Senator Webb.--casualties. So, now----
    General Sheehan. Yes----
    Senator Webb.--this is----
    General Sheehan.--yes, sir.
    Senator Webb.--it's clearly not a hearing about that issue, 
but--I think that what you said could have been misunderstood 
by a lot of people walking out of the room, and----
    General Sheehan. Okay.
    Senator Webb.--need to be clear on it.
    General Sheehan. Thank you for----
    Senator Webb. Let me----
    General Sheehan.--the correction.
    Senator Webb. Let me get into the subject of our discussion 
today.
    First, I'd like to express my appreciation for all of you 
for your testimony. I think the issues that were being 
discussed from your two perspectives are very much the issues 
of integrity, which is what Admiral Mullen was bringing to the 
table. I've known him since I was 18 years old. I have a great 
respect for his views on this. I've known General Sheehan for 
many years, and I think the validity of discussing the unique 
culture and environment in the military, and particularly the 
operational military, is something that really has to be also 
put on the table here.
    There can be nothing more important, in my view--and I 
think John McCain and I share this concern--than ensuring that, 
in this type of a process, that the military be allowed to 
report to the political side.
    General Sheehan, you'll recall when you were Deputy 
Secretary Taft's military aide and I was Secretary of the Navy. 
I had come under a number of questions, during my confirmation 
hearing, about my views on women in combat. A big part of my 
frustration during that period was the political process 
telling the military how to do its actual functions. So I 
convened a study: 14 males, 14 females, officer and enlisted, 
who went out and examined this issue and then reported, not 
back to me, but through the warfare chiefs, then to the Chief 
of Naval Operations. All of them reporting--the military 
reported to the political process, and we opened up more 
billets to women than any Secretary of the Navy in history. 
But, we did it in a way where the military itself was invested 
in the end result.
    That's why I believe that the nature of this survey that 
has been announced, defining it is so vital to addressing this 
issue. I think we need to review the state of play here so that 
we know we're on the table.
    Secretary Gates and Admiral Mullen, when they announced 
their decision in front of our committee, they did say they 
wanted to take this time period to examine the issue and then 
report to this committee about whether this law should be 
reappealed. I asked them, after they had made their testimony, 
if that was clear. The answer was yes, that this was clear.
    So, General, your comment about our body, here, ensuring 
that we would be viewed objectively, is very important.
    The other part of this is, the study that was done in 1993 
did not really examine attitudes in the military. We've had a 
lot of anecdotal comments today--and they're valuable, in terms 
of understanding the issue--but we need the data, we need to be 
able to see, not in a political way, and not simply as to how 
this policy would be implemented, but in a way that we can 
understand the attitudinal characteristics in play--by age, by 
officer or enlisted, by Service; in many cases, I think, by 
occupational specialties--so we will truly have a matrix here 
in terms of understanding attitudes in the military.
    I don't know where that will go. It may surprise you, 
General. I have no idea where it's going to go, but it's a 
vital piece, in my view, of moving this issue forward in the 
right way. Based on that, I believe we can come to a considered 
and intelligent decision. They may even go into distinctions 
based on types of units, General, something that you were 
referring to. I don't want to predict at all where this is 
going to go. I just think that it is vital that we can say to 
the people in the military, and the American people, that we've 
been responsible in terms of how a decision has been made.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Webb.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.
    Good morning, to all three of you. This is a delicate and 
sensitive topic. I commend the courage all three of you have 
shown in coming here today and sharing your point of view.
    General, before I direct a set of questions at you, and 
then follow with Mr. Almy and Ms. Kopfstein, I wanted to just 
make an editorial comment from one Senator. I am in the camp 
that thinks it's time to repeal ``Don't Ask, Don't Tell.'' It's 
not whether, it's how and when. I understand the need to study 
``Don't Ask, Don't Tell'' in order to implement it. But, I 
share a deep concern that, if we continue the policy that's in 
place, hearing the stories I've heard today, you have to ask 
the question who is going to be the last servicemember--maybe I 
should say patriot, frankly--to be discharged under what I 
think is an outdated policy. I just want to make that clear for 
the record.
    General, let me turn, as I suggested I would, to you. I'm 
aware of about a dozen studies, that go back at least two 
decades, that show that there is no scientific evidence to back 
the assertion that open service is a detriment to unit cohesion 
and good order and morale. Are you aware of any reputable 
scientific study that does? Is there a study out there, to say 
it another way, from a reputable source, that lays out and 
gives weight to your belief that gays and lesbians are a threat 
to the military and its readiness?
    General Sheehan. Senator, the answer to that is no. As I 
said in my statement, my conclusions are based on combat 
experience and leadership.
    Senator Udall. You said that we ought to prove that open 
service improves military effectiveness, and you did also 
mention this shouldn't be about enlightenment, and there is a 
different standard to serve in the military than there is, if 
you will, to be a United States citizen. I agree completely, 
this isn't, for me, about feeling good or feeling like we're 
pushing society to be more open. For me, it is that we're in a 
situation where we have 14,000 Americans who have been 
discharged, who've served honorably and with great 
effectiveness.
    But, back to my question--you were saying we need to prove 
that open service improves military effectiveness. Has anybody 
proved that the current law improves effectiveness?
    General Sheehan. Not that I know of, Senator.
    Senator Udall. I appreciate your frank answer.
    Let me turn to the major and the lieutenant. The picture of 
our Armed Forces that General Sheehan paints is a very 
different one than I see. He's suggesting that the patriotic 
young Americans who serve their country are afraid of gay 
servicemembers and lack the professionalism to focus on the 
task at hand. As I said, I agree with him that there's no 
constitutional right to serve, and that some people are 
excluded, for any number of reasons. Where we differ is that I 
see all of reasons for exclusion as performance-related, except 
for sexual orientation. I believe we're dealing with a 
generation of people who know the difference between body 
weight or educational qualifications, for instance, and 
someone's essence, who they are, at their core.
    In your numerous years of service, did you see anything 
that led you to believe that General Sheehan's view of our 
Armed Forces is based on today's realities? Lieutenant, maybe 
I'll start with you, and then turn to the Major.
    Ms. Kopfstein. No, Senator. In my experience, I only had 
positive experiences with my shipmates and the people I served 
with. Nobody had any complaints about taking orders from me or 
the quality of my work product and no one asked to be moved out 
of sharing a stateroom with me. All of the feedback I got after 
I came out was positive. People were happy and thankful that I 
was being honest with them, and that I could share parts of my 
life with them, and that we could actually be friends, that 
there wasn't a wall between us. That helps teamwork, frankly, 
because we could communicate with each other on a level that 
was human and positive.
    So, no, I had no negative experiences with anyone in the 
military.
    Senator Udall. Lieutenant, if I might pursue that before I 
turn to the Major. Reading your very powerful, moving 
testimony, and, even more, hearing you deliver it, it seemed to 
me you were making the case that actually--when you live a lie, 
morale isn't as high as it could be, not only for you, as the 
individual involved, but for those with whom you serve, whether 
they're subordinates or superiors. Is that a fair way to 
characterize it----
    Ms. Kopfstein. Absolutely, Senator.
    Senator Udall.--at least your----
    Ms. Kopfstein. Absolutely.
    Senator Udall.--impression?
    Ms. Kopfstein. People can sense when you're not being fully 
honest with them, and they get the sense that you're holding 
back and that there's something strange about you. Not only 
does that make them curious, but it makes them not necessarily 
trust you completely. Trust is something that you have to have 
for unit cohesion and morale. If there is no trust, there is no 
teamwork.
    Under ``Don't Ask, Don't Tell,'' it is very difficult to 
have trust.
    Senator Udall. It undercuts the element of trust which, 
yes, as you point out, is really the crucial element, is it 
not?
    Major, I want to make sure I don't run out of time before 
you can also comment.
    Mr. Almy. Senator, from my own personal experience, ``Don't 
Ask, Don't Tell'' is often the subject--it's a bit of a running 
joke or the subject of mockery, from gays and straights alike 
in the military, from the standpoint that everyone knows gays 
and lesbians are serving in the military today, and oftentimes 
they are serving openly, they are valued and patriotic members 
of their units who make tremendous contributions. I think the 
general consensus, or the general attitude, among the 
population, at least the ones that I served, was that they all 
understand this law is a reflection, not upon an individual's 
characteristics, their traits, their performance, but solely 
based upon who they are. So, as I said, it's a bit of a running 
joke, because gays and lesbians are already serving.
    Senator Udall. To that point, you served on 13 years of 
Active Duty, I think, alongside forces that did provide for gay 
servicemembers.
    Mr. Almy. Correct, Senator.
    Senator Udall. Did that affect the cohesion or morale, in 
your opinion?
    Mr. Almy. Not at all. What I've just stated, I found that 
attitude to be true, not only among the Air Force, but in my 
time serving with the Marine Corps, the Army, and the Navy. 
I've worked with all four branches. I have served for 4 years 
in Europe with our allies, none of whom have this 
discrimination anymore. In fact, the U.S. military is a bit of 
a joke among our allies, solely because of ``Don't Ask, Don't 
Tell,'' on this issue. It's a complete nonissue for our allies, 
as well as allies that I have served with over in Iraq.
    Senator Udall. My time's going to expire, but last question 
to the two of you. I think it's a yes-or-no answer, but don't 
let me require that. It's been argued that ``Don't Ask, Don't 
Tell'' is working, so why change? Do you believe ``Don't Ask, 
Don't Tell'' is working, Major?
    Mr. Almy. I do not believe ``Don't Ask, Don't Tell'' is 
working, because it throws out qualified men and women who just 
want to serve their country.
    Senator Udall. Lieutenant?
    Ms. Kopfstein. It's absolutely not working, Senator.
    Senator Udall. Thank you.
    I know, General, you believe it's working. If it isn't 
broken, why fix it. I appreciate your being here as well, 
today.
    So, thank you to all three of you, again.
    Chairman Levin. Thank you very much, Senator Udall.
    We'll have a second round now. Why don't we start with 
about 3 minutes each, if we can, and then we can have a third 
round, if that's not enough.
    General, we now serve with the Dutch in Afghanistan. You 
made reference to the Dutch Army a couple decades ago. The 
Dutch allow their troops to serve openly if they're gay or 
lesbian. We're fighting alongside with them now. Do you know of 
any problem with that relationship?
    General Sheehan. I have no firsthand experience of----
    Chairman Levin. Have you heard of any problem?
    General Sheehan. I have not.
    Chairman Levin. Did you ever, when you were NATO Supreme 
Allied Commander, command gay servicemembers?
    General Sheehan. I never asked for the sexual----
    Chairman Levin. But----
    General Sheehan.--orientation----
    Chairman Levin.--did you know whether or not you did?
    General Sheehan. No. I never--I----
    Chairman Levin. You weren't aware of it.
    General Sheehan. No.
    Chairman Levin. Okay.
    I just want to read--let me read Secretary Gates's 
statement, because there was some question here, and Senator 
Burris, I think, asked a question, which elicited a response 
that was not--well, anyway let me read what Secretary Gates has 
said. ``I fully support the President's decision. The question 
before us is not whether the military prepares to make this 
change, but how we best prepare for it.'' So, it's not, in 
Secretary Gates's view, a question of ``whether,'' but a 
question of ``how.'' So, I agree with what Senator Burris was 
saying, there, in terms of what Secretary Gates's position 
relative to this is.
    In terms of General Powell, he basically supports, he said, 
Secretary Gates's decision. They obviously support a study, but 
the study is not a study of ``whether''; it's a study of 
``how'' we are going to implement a repeal. That's just 
clarifications for the record.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Major Almy, I wanted to ask you--perhaps I missed it--but 
what do you think was the motivation of the individual who went 
through your personal computer and then found these messages? 
In other words, did he have a gripe with you about something 
else, was he antigay, or was he just looking for trouble?
    Mr. Almy. Senator, I really don't know for certain. But, I 
can speculate that either this person just had a bias against 
gays and lesbians serving in the military or perhaps he was of 
the mindset that this was a law, and he was----
    Senator Lieberman. Yes.
    Mr. Almy.--being a good troop and following the letter of 
the law.
    Senator Lieberman. Yes. But as----
    Mr. Almy. Maybe a combination of both.
    Senator Lieberman. Right. But, did you know him? Or happen 
to----
    Mr. Almy. Very briefly. This was an individual in the unit 
that replaced mine in Iraq, so I had a brief overlap with 
this----
    Senator Lieberman. But as far as you know, there was no 
conflict between you or anything of that kind.
    Mr. Almy. None that I'm aware of, Senator.
    Senator Lieberman. Okay.
    Let me ask Major Almy and Lieutenant Kopfstein this 
question. When you have a policy of discrimination in the 
United States, the burden has to be on those who are defending 
it. There've been arguments made about effect on morale, effect 
on unit cohesion. I think we've dealt with those very well, 
relevant to military values.
    One of the other arguments, which Senator Chambliss 
referred to, is the effect on recruiting, on the argument that 
a lot of people coming into the military, perhaps a 
disproportionate number--I don't know what the numbers are--
come from areas of the country that are more conservative, in 
terms of social values, et cetera. I know you're not expert in 
this, but you have come out of experience in the military. 
What's your judgment, the two of you, about what impact a 
repeal of ``Don't Ask, Don't Tell'' will have on recruitment?
    Mr. Almy. Senator, I'm not aware of any particular studies 
or polls on that very question you ask. But, I am aware of the 
experiences of foreign militaries, and there were similar 
predictions of gloom and doom on recruiting and retention once 
they repealed their bans on open service. None of that came to 
fruition. In other words, if you talk to all the senior 
leadership of these militaries today, they will tell you that 
repealing their ban had absolutely no effect upon their 
recruiting and retention.
    I think we can draw similar analogies in our own military. 
That, as well as--I would like to say that--the military's 
diverse culture--one of the strengths of our military is, we 
bring young men and women from diverse backgrounds and bring 
them together and basically tell them that they have to be 
professional and work with people that are different from 
themselves. Oftentimes, these young men and women have never 
experienced an interaction, professionally, with someone from a 
different race, from a different background, from a different 
country of origin. That's one of the strengths of our military. 
In fact, our military celebrates in our diversity, and it's 
true. I see this as just one more aspect of our diverse 
military culture.
    Senator Lieberman. Thank you.
    Lieutenant, do you have a judgment on that?
    Ms. Kopfstein. Senator, I believe that repealing this law 
will actually improve recruiting. I know that there are many 
patriotic Americans who do not want to work for an organization 
that discriminates. So, in that respect, I believe that 
recruiting will be improved. Also, when you're talking about 
recruiting, you're talking about the 18-to-24-year-old 
demographic. Today's generation are most likely to know someone 
who is gay. When you know somebody personally, you're much less 
likely to fear them, and I think that most discrimination is 
based on fear.
    Senator Lieberman. Thank you very much.
    Ms. Kopfstein. So, it's my opinion----
    Senator Lieberman. I just remembered something. This was a 
while back, on another issue, but related. I was talking to an 
executive of a Fortune 100 company, and he was saying that he 
felt, when his company goes out to recruit on college 
campuses--this is to validate your point--that it is a positive 
to say that they, essentially, have employment 
nondiscrimination based on sexual orientation.
    Thank you.
    Chairman Levin. Thank you very much.
    Senator Burris.
    Senator Burris. Thank you, Mr. Chairman.
    I just want to say for the record that I'm not trying to 
base all of my questions on race. It's just a framework to try 
to get people to start thinking beyond that.
    I'd like to raise a question with General Sheehan. In your 
3 years, as you served as Supreme Allied Commander, Commander 
of the Atlantic, you oversaw NATO troops from many diverse 
nations. Would you say that your forces bonded and were 
successful in the missions that they carried out? Did they have 
any problems in carrying out their missions, General?
    General Sheehan. The answer to that is no. The reason why 
that's no is because NATO clearly understood the U.S. military 
was present, that we had the capability and the rules of 
engagement in place to do things that they could not do. You 
see, still, manifestations of this--withholds or caveats in the 
use of troops in Afghanistan today--that is still problematic.
    Senator Burris. General, I'm sure that you, over the course 
of your service, have seen many units bond, with the purpose of 
working as a cohesive group. Can you tell me what parts of 
Major Almy's service record affected his unit negatively, or 
affected his readiness?
    General Sheehan. I do not have a detailed knowledge of 
Major Almy's record. I do appreciate his service to this 
Nation. Both of them are to be congratulated for that service.
    As I said during my testimony, my experience in a combat 
environment essentially was that, when a homosexual marine 
molested another marine, the real problem with the unit, not 
that it was the discipline to the individual, but what it did 
to the cohesion of the organization. First off, because the 
young PFC didn't believe that he was being supported; second, 
that people took sides. You cannot afford to take a unit out of 
combat for 3 to 4 days while you sort out these type of issues. 
The enemy doesn't allow you the luxury of taking units off the 
line.
    Senator Burris. Major, how was your effectiveness in terms 
of you operating--your readiness and your--any negativism under 
your command?
    Mr. Almy. I would say, Senator, that certainly my being 
relieved of my duties had a negative impact upon my unit.
    Senator Burris. So, the releasing you.
    Mr. Almy. Correct. That had a negative impact on the 
mission, the unit cohesion. Certainly, as I told some of my 
troops what was going on, it was a complete nonissue for them, 
to the point that they all wanted me back on the job as their 
leader.
    Senator Burris. Lieutenant, how about you, in terms of when 
you said you got the orders--the captain--to load up the 
batteries, and you said it had no impact, whether you were 
lesbian or not, as to just what the situation was. Is that 
correct?
    Ms. Kopfstein. That's right, Senator.
    Senator Burris. Now, did you experience any negative 
attitude when you came out in open? Was there anything negative 
that you experienced?
    Ms. Kopfstein. No, I only had positive experiences.
    Senator Burris. For being honest, forthright, and living up 
to the Navy----
    Ms. Kopfstein. Absolutely. I believe my fellow sailors 
appreciated my honesty.
    Senator Burris. Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Burris.
    Mr. Almy. Excuse me, Mr. Chairman, if I could offer one 
quick comment.
    Chairman Levin. Sure.
    Mr. Almy. I wanted to go back to your question to the 
General regarding the Dutch military. I have served alongside 
the Dutch military, I have been in an exercise in field 
conditions, in the Netherlands, where my unit served alongside 
the Dutch military, both officers and enlisted. The subject of 
sexual orientation, or ``Don't Ask, Don't Tell,'' was a 
complete nonissue to both the Americans as well as the Dutch, 
and that was within the past 5 years.
    Chairman Levin. I think we all remember Srebrenica, but I 
think that any effort to connect that failure on the part of 
the Dutch to the fact that they have homosexuals, or did allow 
homosexuals, I think, is totally off target, and I've seen no 
suggestion of that. I've seen the failures that you talk about, 
General, in terms of their training being peacekeeping and 
their not being trained to do the kind of work that needed to 
be done--is accurate. But, in terms of--any attribution to the 
fact that they had allowed gays in the military is no more on 
point than the fact that they may have allowed Dutch-Africans 
or women, if there were women. I think it's just----
    General Sheehan. My comment----
    Chairman Levin. We'll check it out----
    General Sheehan. My----
    Chairman Levin. We're going to----
    General Sheehan.--comment was that it was the 
liberalization that caused----
    Chairman Levin. I know, but the--I agree with the--
liberalization can----
    General Sheehan. I am----
    Chairman Levin.--mean that the----
    General Sheehan. I am just repeating----
    Chairman Levin.--you don't train people to----
    General Sheehan.--what was told me.
    Chairman Levin.--engage in combat. You don't train people 
to have--to engage in the kind of activity that you have to do 
to enforce the law. I agree with that. They weren't good in 
that respect. They were trained to be peacekeepers, not peace 
enforcers. I totally agree with that.
    But to slide over from that into a suggestion that it had 
something to do with the fact that homosexuals were allowed in 
the Dutch Army suggests that somehow or other homosexuals are 
not great fighters. I think that is totally----
    General Sheehan. I didn't say----
    Chairman Levin.--wrong.
    General Sheehan.--they weren't great fighters.
    Chairman Levin. Well----
    General Sheehan. What I said was the liberalization of the 
Dutch military was a contributing factor to their failure in 
Srebrenica.
    Chairman Levin. The Dutch military, as you point out, were 
peacekeepers and not peace enforcers. I agree with that. But, 
what the heck that has to do with the issue before us is what 
mystifies me, because I don't think it has anything to do with 
the issue in front of us. But, I'll----
    Senator Lieberman. Mr. Chairman, if I may--and I don't want 
to prolong this, but I just do want to say--look, our closest 
military allies in the world, the Brits, have a policy by which 
homosexuals serve openly, and they have a great record. The 
British military, we would work very closely with them. They 
are side-by-side with us today in Afghanistan. In fact, when I 
was last there, in January, with Senator McCain, we were 
briefed by British General Carter, who's overseeing his 
tactical direction of a large number of forces, including 
marines--U.S. Marines in the south--in Helmand Province, in the 
south of Afghanistan--so just to offer evidence, with which I 
would guess that you'd agree, that the British military is a 
great military, and great allies of ours, notwithstanding their 
policy on homosexuals serving openly.
    General Sheehan. Sir, not to prolong the discussion, but--
--
    Senator Lieberman. I did.
    General Sheehan.--just for the matter of record. The 
decision, to allow openly homosexual people to serve in British 
military, was not done by the British government, or by the 
British people. It was done because the European Union court 
imposed it on the British. So, depending on who you talk to 
within the British--and I lived in London during the time of 
this process, the--basically, the British military was told 
just to shut up and accept it. So there, it is not an open-and-
shut case that there isn't some tension over the issue.
    The issue, in terms of working for a British general and 
I--and both of you know this, because we've gone through this 
discussion on previous times when I've been here--there's a 
difference--we don't allow, because of incidents like dual-key, 
American forces to become--under the operational control of 
non-U.S. commanders. We give them tactical control.
    Senator Lieberman. Tactical, right.
    General Sheehan. Tactical control does not affect much more 
than just a tactical activity. So, again, these are minor 
points in the discussion, and I have no problem with your 
analogy that the Brits are good soldiers.
    Senator Lieberman. Thank you.
    Chairman Levin. I would add the Canadians and a bunch of 
other allies to that. We visited the Canadians down in southern 
Afghanistan, in Helmand Province, and they're doing one hell of 
a job, and they allow people to serve openly regarding their 
sexual orientation. I just think we have to be careful that you 
don't stereotype people because they're gay or lesbian, that 
somehow or other they are lesser fighters. That was the problem 
in Srebrenica, is that you didn't have people there that were 
fighting to enforce the law against some people who were 
terrorizing and killing others. It had nothing to do with their 
sexual orientation; it had to do with their training and their 
rules of engagement.
    Let me close the hearing now with--first of all, with 
thanks to each of you for your service, as well as for your 
appearance here today. I think every one of us have thanked you 
for both your service to our country, as well as your 
willingness to appear today.
    Just one example of how ending this discriminatory policy 
could contribute to our military's effectiveness--and I think 
the most important way it'll contribute, it will allow patriots 
who are willing to fight and put on the uniform of this 
country, to join the cause. To me, that's vitally important in 
this kind of a pluralistic and diverse democracy that we have.
    But, we have lost I don't know how many linguists, just to 
give one example, who speak Arabic and Farsi, who've been 
forced out of the military because of this policy. We 
desperately need those folks. Now, I think we need all people 
who are willing to put on the uniform, and I use that as just 
one example. We probably have lost 13,000 or more Americans who 
are willing to serve, and that, to me, is a real loss of 
military effectiveness. But, just that one example, maybe, can 
highlight how we're really damaging our own capabilities and 
our own effectiveness when we have a discriminatory policy.
    I also believe it's unconscionable, when the Commander in 
Chief and the Chairman of the Joint Chiefs have both said we 
should repeal a policy, for us to continue to discharge people 
solely because of their sexual orientation, during a period 
when there's a study going on as to how to implement that 
policy. Not ``whether'' to implement it; if you look at the 
policy guidance, it's ``how'' to implement a new policy. It 
just violates my conscience.
    I'm in favor of repeal, and there's no doubt about that. 
I've made that clear. I've cosponsored Senator Lieberman's 
bill. But, that's, for me--as important as that is, there's 
this interim problem we have, that people are going to be 
discharged, apparently, pursuant to this policy, after the 
Commander in Chief has said they shouldn't be discharged, and 
after the Chairman of the Joint Chiefs has said they shouldn't 
be discharged, and while we are having a study underway as to 
how to implement a repeal. That strikes me as unconscionable 
and unfair, and I hope we can repeal this policy promptly.
    In the interim we surely ought to suspend the discharges 
until the completion of that study. If we can't get this 
repealed--and I hope we can--at a minimum, I hope we can 
suspend the discharges under these circumstances.
    Senator Lieberman. Chairman Levin, just from--made me think 
about what Lieutenant Kopfstein said at the beginning. We made 
a big investment in her, and she owes us a year and a half. So, 
I want to give her----[Laughter.]
    Chairman Levin. We intend to get it back. I want you to 
know that, too. [Laughter.]
    Ms. Kopfstein. I'm happy to give it, sir.
    Chairman Levin. Well, no, we are very grateful to all of 
you for coming forward, and we've had a good, lively 
discussion. That's a part of this democracy of ours, too. 
Hopefully, we cannot only reach the right conclusion, but reach 
it promptly, and have an interim solution which is fair, as 
well.
    We will stand adjourned, with thanks to everybody.
    [Appendixes A and B follow:]

                               APPENDIX A

      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                               APPENDIX 
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
         
    [Whereupon, at 12:11 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
